App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DR. SEUSS ENTERPRISES, L.P.,
a California limited partnership,
Plaintiff-Appellant,
v.

No. 19-55348
D.C. No.
3:16-cv-02779JLS-BGS

COMICMIX LLC, a Connecticut
limited liability company; GLENN
HAUMAN, an individual; DAVID
JERROLD FRIEDMAN, AKA David
Gerrold, an individual;
TY TEMPLETON, an individual,

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of California
Janis L. Sammartino, District Judge, Presiding
Argued and Submitted April 27, 2020
Seattle, Washington
Filed December 18, 2020
Before: M. Margaret McKeown, N. Randy Smith,
and Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge McKeown

App. 2

COUNSEL
Stanley J. Panikowski (argued), DLA Piper LLP (US),
San Diego, California; Andrew L. Deutsch DLA
Piper LLP (US), Los Angeles, California; Tamar Y.
Duvdevani and Marc E. Miller, DLA Piper LLP (US),
New York, New York; for Plaintiff-Appellant.
Dan Booth (argued), Dan Booth Law LLC, Concord,
Massachusetts; Michael Licari, Sprinkle Lloyd & Licari,
LLP, San Diego, California; for Defendants-Appellees.
Jacqueline C. Charlesworth, Alter, Kendrick & Baron
LLP, New York, New York, for Amicus Curiae the Motion Picture Association Of America, Inc.
Susan Kohlmann and Alison Stein, Jenner & Block
LLP, New York, New York; James Dawson, Jenner &
Block LLP, Washington D.C.; Keith Kupferschmid and
Terry Hart, Copyright Alliance, Washington D.C.; for
Amicus Curiae the Copyright Alliance.
Peter S. Menell, Berkeley Center For Law & Technology, University of California, Berkeley School of Law,
Berkeley, California for Amici Curiae Professors Peter
S. Menell, Shyamkrishna Balganesh, and David Nimmer.
Dean S. Marks, Dean S. Marks, Attorney-at-Law, Sherman Oaks, California for Amicus Curiae Sesame Workshop.
Mason A. Kortz, Cyberlaw Clinic, Harvard Law School,
Cambridge, Massachusetts, for Amici Curiae Electronic
Frontier Foundation, Organization For Transformative

App. 3
Works, Public Knowledge, Francesca Coppa, David
Mack, and Magdalene Visaggio.
Phillip R. Malone, Juelsgaard Intellectual Property
and Innovation Clinic, Mills Legal Clinic at Stanford
Law School, Stanford, California, for Amici Curiae Intellectual Property Law Professors.
Erik Stallman, Samuelson Law, Technology & Public
Policy Clinic, University of California, Berkeley School
of Law, Berkeley, California, for Amici Curiae Professors Mark A. Lemley, Jessica Litman, Lydia Loren,
Pamela Samuelson, and Rebecca Tushnet.
OPINION
McKEOWN, Circuit Judge.
In Dr. Seuss’s classic book, Oh, the Places You’ll
Go! (Go!), the narrator counsels the protagonist on a
path of exploration and discovery. The book closes with
this note of caution:
I’m sorry to say so
But, sadly it’s true
That Bang-ups
And Hang-ups
Can happen to you.
If he were alive today, Dr. Seuss might have gone on to
say that “mash-ups can happen to you.”
Enter Oh, the Places You’ll Boldly Go! (Boldly).
Authored by Star Trek episodes author David Gerrold,
illustrated by Ty Templeton, and edited by fellow

App. 4
Trekkie Glenn Hauman (collectively, ComicMix), Boldly
is a mash-up that borrows liberally—graphically and
otherwise—from Go! and other works by Dr. Seuss, and
that uses Captain Kirk and his spaceship Enterprise to
tell readers that “life is an adventure but it will be
tough.” The creators thought their Star Trek primer
would be “pretty well protected by parody,” but acknowledged that “people in black robes” may disagree.
Indeed, we do.
The question we consider is whether Boldly’s use
of Dr. Seuss’s copyrighted works is fair use and thus
not an infringement of copyright. Because all of the fair
use factors favor Dr. Seuss, we reverse the district
court’s summary judgment in favor of ComicMix on the
copyright infringement claim. We affirm, however, the
Rule 12(c) dismissal and the grant of summary judgment in favor of ComicMix on the trademark claim.
BACKGROUND
Go! was the final book written by the late Theodor
S. Geisel, better known by his pseudonym, “Dr. Seuss.”
Many of the dozens of books Dr. Seuss authored and
illustrated were wildly popular when they were published and have remained so throughout the decades.
“Dr. Seuss” was the top licensed book brand of 2017.
Notably, Go! has been “the number-one book on The
New York Times Best Sellers list” “[e]very year during
graduation season.” The other Dr. Seuss works that are
at issue—How the Grinch Stole Christmas! (Grinch)
and The Sneetches and Other Stories (Sneetches)—also

App. 5
remain well-recognized. For simplicity, we refer to the
relevant Dr. Seuss works collectively as Go!.
Today, Dr. Seuss Enterprises, L.P. (Seuss) owns the
intellectual property in Dr. Seuss’s works, including
the copyrights in his books and the trademarks in his
brand. Seuss markets the books to children and adults.
Seuss also publishes reissues of the books, such as anniversary editions. And Seuss licenses and oversees
the creation of new works under the Dr. Seuss brand.
Seuss carefully vets the many licensing requests it receives and works closely with the licensees and collaborators to produce works based on Dr. Seuss’s books.
The myriad licensed works that proliferate in the
market include fine art, toys, video games, stage productions, motion pictures, and books that incorporate
elements of Dr. Seuss’s iconic works. Go! alone is the
basis for several authorized derivative works such as
the following books: Oh, the Things You Can Do that
Are Good for You!; Oh, the Places I’ll Go! By ME, Myself;
Oh, Baby, the Places You’ll Go!; and Oh, the Places I’ve
Been! A Journal. Seuss has also entered into various
collaborations to create new works that target the audiences of Seuss and its collaborators. In one wellknown collaboration, The Jim Henson Company and
Seuss produced a television and book series called The
Wubbulous World of Dr. Seuss, featuring “muppetized”
Dr. Seuss characters.
Boldly is not a licensed work of Seuss. Nor is it a
collaboration or an otherwise authorized work. Nevertheless, in May 2016, David Gerrold (author of Star

App. 6
Trek episodes) and Glenn Hauman (Vice President of
the publishing company ComicMix LLC) decided to
send the Enterprise crew to a new literary world.
Gerrold and Hauman agreed to create a “Star Trek
Primer”—a mash-up of Star Trek and another wellknown primer. A mash-up is “something created by
combining elements from two or more sources,” such as
“a movie or video having characters or situations from
other sources.” Mash-up, Merriam-Webster Dictionary,
https://www.merriam-webster.com/dictionary/mash-up.
After considering Pat the Bunny and other primers,
Gerrold and Hauman decided to use Go! and to place
the Enterprise crew in a colorful Seussian landscape
full of wacky arches, mazes, and creatures—a world
that is familiar to Dr. Seuss readers but a strange new
planet for Captain Kirk’s team. They hired Ty Templeton, an experienced illustrator. ComicMix purposely
crafted Boldly so that the title, the story, and the illustrations “evoke” Go!.
ComicMix planned to publish and sell Boldly. An
e-commerce retailer, ThinkGeek, agreed to handle the
distribution and merchandizing of Boldly, and placed
a conditional order for 5,000 copies. In August 2016,
ComicMix started a successful crowdsourcing campaign on Kickstarter to pay for production and other
costs, eventually raising close to $30,000. The campaign also drew the attention of an editor at Andrews
McMeel Publishing, who proposed doing a direct sale
publication of Boldly.

App. 7
The fundraising effort raised more than eyebrows
when the Seuss organization became aware of Boldly.
In September and October of 2016, Seuss sent ComicMix a cease-and-desist letter and two follow-up letters.
ComicMix responded that Boldly was a fair use of Go!.
Seuss also sent Kickstarter a takedown notice under
the Digital Millennium Copyright Act; Kickstarter took
down the campaign and blocked the pledged funds.
Boldly remains unpublished.
Seuss filed suit against Hauman, Gerrold, Templeton, and ComicMix LLC in November 2016 for copyright infringement, trademark infringement, and
unfair competition. The district court granted ComicMix’s Rule 12(c) motion and dismissed Seuss’s trademark infringement claim as it relates to the title of
Boldly. The parties then filed cross-motions for summary judgment on the copyright claim, and ComicMix
moved for summary judgment on the remainder of
the trademark infringement claim. The district court
granted ComicMix’s summary judgment motion and
denied Seuss’s motion, holding that Boldly was a fair
use of Go! and that the remainder of Seuss’s trademark infringement claim failed.1
ComicMix does not dispute that it tried to copy
portions of Go! as accurately as possible. Templeton
urged the team to “keep to [Go!’s] sentiment” that “life
is an adventure but it WILL be tough and there WILL
1

Although Seuss alleged unfair competition claims in the
Complaint, it failed to address them in its opening brief, and thus
we do not consider those claims here. See Indep. Towers of Wash.
v. Washington, 350 F.3d 925, 929 (9th Cir. 2003).

App. 8
be setbacks, and you should not despair of them.” As
for the text of Boldly, Hauman created a side-by-side
chart comparing the texts of Go! and Boldly in order
to “match the structure of Go!.” Boldly also closely
mimics many illustrations in Go!, as a result of what
ComicMix called “slavish[ ] copy[ing] from Seuss.” In
one instance, Templeton took “about seven hours” to
copy a single illustration because he “painstakingly attempted to make” the illustration in Boldly “nearly
identical” to its Seussian counterpart.
The issue in this appeal is not whether Boldly infringed Go!, but whether Boldly! was a fair use of Go!.2
Gerrold and Hauman thought they could either get a
license or create a parody, and concluded that Boldly
“come[s] down well on the side of parody” and does not
infringe Seuss’s copyright. Templeton agreed. Despite
being “slightly concerned,” ComicMix did not consult a
lawyer or pursue the option of a license.3 This failure
led to this lawsuit.
ANALYSIS
I.

BOLDLY DOES NOT MAKE FAIR USE

OF

GO!

The fair use doctrine first took root in a case involving the biography of our first president. Justice
Story asked whether copying the writings of President
2

We received many thoughtful amicus briefs, and we thank
amici for their participation.
3
ComicMix also did not obtain a license for the use of Star
Trek material, but the intellectual property in Star Trek is not at
issue in this case.

App. 9
George Washington for a biography was “a justifiable
use of the original materials, such as the law recognizes as no infringement of the copyright. . . .” See
Folsom v. Marsh, 9 F. Cas. 342, 348 (C.C.D. Mass. 1841).
Although fair use was not codified until 1976, American copyright law has always counterbalanced the exclusive rights of a copyright with a fair use backstop.
Under the statute, “fair use of a copyrighted work . . .
is not an infringement of copyright.” 17 U.S.C. § 107.
“The fair use defense permits courts to avoid rigid application of the copyright statute when, on occasion,
it would stifle the very creativity which that law is
designed to foster.” Dr. Seuss Enters., L.P. v. Penguin
Books USA, Inc., 109 F.3d 1394, 1399 (9th Cir. 1997)
(quotation marks and citation omitted).
The factors that determine fair use have changed
little since Justice Story first announced them in Folsom and now are reflected in § 107 of the Copyright
Act of 1976 as the following four non-exclusive factors:
(1) the purpose and character of the use, including whether such use is of a commercial nature or is for nonprofit educational
purposes;
(2) the nature of the copyrighted work;
(3) the amount and substantiality of the portion used in relation to the copyrighted
work as a whole; and

App. 10
(4) the effect of the use upon the potential
market for or value of the copyrighted
work.
17 U.S.C. § 107(1)–(4); accord Folsom, 9 F. Cas. at 348.
Congress codified these factors without intending to
disrupt “the common-law tradition of fair use adjudication.” Campbell v. Acuff-Rose Music, Inc., 510 U.S.
569, 577 (1994) (citing H.R. Rep. No. 94-1476, p. 66
(1976)). The fair use defense remains an “equitable
rule of reason.” Sony Corp. of Am. v. Universal City
Studios, Inc., 464 U.S. 417, 448 (1984) (quoting H.R.
Rep. No. 94-1476, p. 65).
Fair-use analysis, like the Go! protagonist’s life
journey, is “a Great Balancing Act.” All four factors are
“to be explored, and the results weighed together, in
light of the purposes of copyright.” Campbell, 510 U.S.
at 578. The Supreme Court teaches that we should
eschew “bright-line rules” and “categories of presumptively fair use,” and instead engage in a “case-by-case
analysis.” Id. at 577, 584. As we have observed, fair use
analysis can be elusive to the point of “approaching ‘the
metaphysics of the law, where the distinctions are . . .
very subtle and refined, and, sometimes, almost evanescent.’ ” Monge v. Maya Mags., Inc., 688 F.3d 1164,
1171 (9th Cir. 2012) (quoting Folsom, 9 F. Cas. at 344).
Not so with this case. Because all of the statutory factors decisively weigh against ComicMix and no countervailing copyright principles counsel otherwise, we
conclude that Boldly did not make fair use of Go!.

App. 11
A. The Purpose and Character of Boldly
Weigh Against Fair Use
The first statutory factor examines “the purpose
and character of the use, including whether such use
is of a commercial nature or is for nonprofit educational purposes.” 17 U.S.C. § 107(1). This factor has
taken on a heightened significance because it influences the lens through which we consider two other
fair use factors. The third factor—the amount and substantiality of use—“will harken back” to the first factor.
See Campbell, 510 U.S. at 586. And the fourth factor,
relating to market harm, is influenced by whether the
commercial use was transformative. See Monge, 688
F.3d at 1181.
Although a commercial use is no longer considered
presumptively unfair, the nature of the work remains
“one element of the first factor enquiry.” Campbell, 510
U.S. at 584–85. As explained below, Boldly is not transformative, and its indisputably commercial use of Go!
counsels against fair use. See Penguin Books, 109 F.3d
at 1401 (commerciality “further cuts against the fair
use defense” when there is “no effort to create a transformative work”).
The term “transformative” does not appear in
§ 107, yet it permeates copyright analysis because in
Campbell, the Court interpreted the “central purpose”
of the first-factor inquiry as determining “whether and
to what extent the new work is ‘transformative.’ ”
Campbell, 510 U.S. at 579. Transformative use of the
original work can tip the first factor in favor of fair use.

App. 12
A transformative work “adds something new, with
a further purpose or different character, altering the
first with new expression, meaning, or message.” Id.
On the other hand, a work that “merely supersedes the
objects of the original creation” is not transformative.
Id. (quotation marks omitted). While the analysis of
the first fair use factor “may be guided by the examples
given in the preamble to § 107,” i.e., criticism, comment, news reporting, teaching, scholarship, and research, id. at 578–79, not even these works compel “a
per se finding of fair use,” Monge, 688 F.3d at 1173.
Thus, we do not ask whether mash-ups can be fair
use—they can be—but whether Boldly is a transformative work.
The purpose and character of a parody fits
squarely into preamble examples—particularly “criticism” and “comment”—and has “an obvious claim” to
transformative use. Campbell, 510 U.S. at 579. By definition, a parody must “use some elements of a prior
author’s composition to create a new one that, at least
in part, comments on that author’s works.” Id. at 580,
The need “to mimic an original to make its point” is the
essence of parody. Id. at 580–81; see Penguin Books,
109 F.3d at 1400 (a parody must “conjure up” at least a
part of “the object of [the] parody”). In short, a parody
is a spoof, send-up, caricature, or comment on another
work. A great example of a parody is the book The Wind
Done Gone, which parrots portions of Gone with the
Wind to offer a critical take on the book. See Suntrust
Bank v. Houghton Mifflin Co., 268 F.3d 1257, 1270–71
(11th Cir. 2001) (“It is hard to imagine” how a parody

App. 13
that attempts to “strip the romanticism” of slavery in
Gone with the Wind can be made “without depending
heavily upon copyrighted elements of that book.”). On
the other hand, if
the commentary has no critical bearing on the
substance or style of the original composition,
which the alleged infringer merely uses to get
attention or to avoid the drudgery in working
up something fresh, the claim to fairness in
borrowing from another’s work diminishes accordingly (if it does not vanish), and other factors, like the extent of its commerciality, loom
larger.
Campbell, 510 U.S. at 580.
Boldly is not a parody. ComicMix does not seriously contend that Boldly critiques or comments on
Go!. Rather, it claims Boldly is a parody because it situated the “violent, sexual, sophisticated adult entertainment” of Star Trek “in the context of [Dr. Seuss]” to
create a “funny” book. We considered and rejected this
very claim in an appeal involving another well-known
book by Dr. Seuss—The Cat in the Hat (Cat). The retelling of the O.J. Simpson double murder trial in the
world of Cat—in a book titled The Cat NOT in the Hat!
A Parody by Dr. Juice (Not)—was not a parody of Cat.
Penguin Books, 109 F.3d at 1396, 1401. We explained
that “broadly mimic[king] Dr. Seuss’[s] characteristic
style” is not the same as “hold[ing] his style up to ridicule,” and that without a critique of Cat, all Not did was
“simply retell the Simpson tale” using the expressive
elements of Cat “to get attention or maybe even to

App. 14
avoid the drudgery in working up something fresh.” Id.
at 1401 (quotation marks and citation omitted).
Boldly’s claim to a parody fares no better. Although elements of Go! are featured prominently in
Boldly, the juxtapositions of Go! and Star Trek elements do not “hold [Seussian] style” up to ridicule. Id.
From the project’s inception, ComicMix wanted Boldly
to be a Star Trek primer that “evoke[s]” rather than
“ridicule[s]” Go!. Similarly, Boldly’s use of the other
Seuss works does not conjure up a critique of Go!.
Boldly’s replacement of Grinch’s “ ‘Whos from Whoville’ with the diverse crew and Kirk’s ‘lovers of every
hue,’ ” the redrawing of “a Sneetches machine to signify
the Enterprise transporter,” and the rendering of “the
‘lonely games’ played in Go!” as a “contemplative chess
match between two Spocks” were all used to tell the
story of the Enterprise crew’s adventures, not to make
a point about Go!. Lacking “critical bearing on the substance or style of ” Go!, Boldly cannot be characterized
as a parody. Campbell, 510 U.S. at 580.
We also reject as “completely unconvincing” ComicMix’s “post-hoc characterization of the work” as criticizing the theme of banal narcissism in Go!. Penguin
Books, 109 F.3d at 1403; see also Castle Rock Ent., Inc.
v. Carol Publ’g Grp., Inc., 150 F.3d 132, 142 (2d Cir.
1998) (ignoring similar “post hoc rationalizations”).
The effort to treat Boldly as lampooning Go! or mocking the purported self-importance of its characters
falls flat.

App. 15
Nor is Boldly otherwise transformative. ComicMix
argues that even if Boldly is not a parody, Boldly is
transformative because it replaced Seuss characters
and other elements with Star Trek material. Again, the
Cat case repudiates ComicMix’s position. There, efforts
to leverage Dr. Seuss’s characters without having a
new purpose or giving Dr. Seuss’s works new meaning
similarly fell short of being transformative. The copyists “merely use[d]” what Dr. Seuss had already created—e.g., “the Cat’s stove-pipe hat, the narrator (“Dr.
Juice”), and the title (The Cat NOT in the Hat!)”—and
overlaid a plot about the O.J. Simpson murder trial
without altering Cat “with ‘new expression, meaning
or message.’ ” Penguin Books, 109 F.3d at 1401 (quoting
Campbell, 510 U.S. at 578). For the same reasons, ComicMix’s efforts to add Star Trek material on top of what
it meticulously copied from Go! fail to be transformative.
Notably, Boldly lacks the benchmarks of transformative use. These telltale signs of transformative
use are derived from the considerations laid out in
Campbell, our north star, and Seltzer v. Green Day, Inc.
from our circuit: (1) “further purpose or different character” in the defendant’s work, i.e., “the creation of new
information, new aesthetic, new insights and understanding”; (2) “new expression, meaning, or message”
in the original work, i.e., the addition of “value to the
original”; and (3) the use of quoted matter as “raw material,” instead of repackaging it and “merely supersed[ing] the objects of the original creation.” See
Campbell, 510 U.S. at 579; Seltzer v. Green Day, Inc.,

App. 16
725 F.3d 1170, 1176 (9th Cir. 2013) (quoting Leval,
Toward a Fair Use Standard, 103 Harv. L. Rev. 1105,
1111 (1990)). Boldly possesses none of these qualities;
it merely repackaged Go!.
Boldly’s claim to transformative use rests on the
fact that it has “extensive new content.” But the addition of new expression to an existing work is not a getout-of-jail-free card that renders the use of the original
transformative. The new expression must be accompanied by the benchmarks of transformative use. See, e.g.,
Seltzer, 725 F.3d at 1177–78; Cariou v. Prince, 714 F.3d
694, 706 (2d Cir. 2013); Blanch v. Koons, 467 F.3d 244,
251–52 (2d Cir. 2006).
Instead of possessing a further purpose or different character, Boldly paralleled Go!’s purpose. In propounding the same message as Go, Boldly used
expression from Go! to “keep to [Go!’s] sentiment.” Absent new purpose or character, merely recontextualizing the original expression by “plucking the most
visually arresting excerpt[s]” of the copyrighted work
is not transformative. L.A. News Serv. v. CBS Broad.,
Inc., 305 F.3d 924, 938–39 (9th Cir. 2002). By contrast,
reconstituting copyrighted expression was for a new,
transformative purpose when a “seven-second clip of
Ed Sullivan’s introduction of the [band] Four Seasons
on The Ed Sullivan Show” was used in the musical
Jersey Boys, not to introduce the band’s performance,
but to serve “as a biographical anchor” about the band.
SOFA Ent., Inc. v. Dodger Prods., Inc., 709 F.3d 1273,
1276, 1278 (9th Cir. 2013).

App. 17
Boldly also does not alter Go! with new expression,
meaning, or message. A “ ‘transformative work’ is one
that alters the original work.” Perfect 10, Inc. v.
Amazon.com, Inc., 508 F.3d 1146, 1164 (9th Cir. 2007)
(quoting Campbell, 510 U.S. at 579). While Boldly may
have altered Star Trek by sending Captain Kirk and
his crew to a strange new world, that world, the world
of Go!, remains intact. Go! was merely repackaged into
a new format, carrying the story of the Enterprise
crew’s journey through a strange star in a story shell
already intricately illustrated by Dr. Seuss. Unsurprisingly, Boldly does not change Go!; as ComicMix readily
admits, it could have used another primer, or even created an entirely original work. Go! was selected “to get
attention or to avoid the drudgery in working up something fresh,” and not for a transformative purpose.
Campbell, 510 U.S. at 580.
Most telling is ComicMix’s repackaging of Go!’s
illustrations. The Star Trek characters step into the
shoes of Seussian characters in a Seussian world that
is otherwise unchanged. ComicMix captured the placements and poses of the characters, as well as every red
hatch mark arching over the handholding characters
in Grinch’s iconic finale scene, then plugged in the Star
Trek characters. (The Seuss images always appear to
the left of the Boldly! images juxtaposed in this opinion.)

App. 18

ComicMix copied the exact composition of the famous “waiting place” in Go!, down to the placements of
the couch and the fishing spot. To this, ComicMix
added Star Trek characters who line up, sit on the
couch, and fish exactly like the waiting place visitors
they replaced. Go! continues to carry the same expression, meaning, or message: as the Boldly text makes
clear, the image conveys the sense of being stuck, with
“time moving fast in the wink of an eye.”

ComicMix also copied a scene in Sneetches,4 down
to the exact shape of the sandy hills in the background
and the placement of footprints that collide in the middle of the page. Seussian characters were replaced with
Spocks playing chess, making sure they “ha[d] similar

4

The illustration comes from a story called The Zax.

App. 19
poses” as the original, but all ComicMix really added
was “the background of a weird basketball court.”

ComicMix likewise repackaged Go!’s text. Instead
of using the Go! story as a starting point for a different
artistic or aesthetic expression, Hauman created a
side-by-side comparison of the Go! and Boldly texts in
order “to try to match the structure of Go!.” This copying did not result in the Go! story taking on a new expression, meaning, or message. Because Boldly “left
the inherent character of the [book] unchanged,” it was
not a transformative use of Go!. Monge, 688 F.3d at
1176.
Although ComicMix’s work need not boldly go
where no one has gone before, its repackaging, copying,
and lack of critique of Seuss, coupled with its commercial use of Go!, do not result in a transformative use.
The first factor weighs definitively against fair use.
B. The Nature of Go! Weighs Against Fair
Use
The second statutory factor considers the “the nature of the copyrighted work.” 17 U.S.C. § 107(2). This
factor “recognizes that creative works are ‘closer to the

App. 20
core of intended copyright protection’ than informational and functional works, ‘with the consequence
that fair use is more difficult to establish when the
former works are copied.’” Penguin Books, 109 F.3d
at 1402 (quoting Campbell, 510 U.S. at 586). Hence,
Boldly’s copying of a creative and “expressive work[ ]”
like Go! tilts the second factor against fair use. Campbell, 510 U.S. at 586.
This factor also considers whether the copied work
is unpublished, a consideration that is not relevant for
the Seuss works. “[T]he unpublished nature of a work
is a key, though not necessarily determinative, factor
tending to negate a defense of fair use,” because a copyist’s initial publication of the work undermines “the
author’s right to control the first public appearance of
his undisseminated expression.” Harper & Row, Publishers Inc. v. Nation Enter., 471 U.S. 539, 554–55
(1985) (quotation marks omitted). But the converse is
not necessarily true; neither Harper & Row nor any
principle of fair use counsels that the publication of the
copyrighted work weighs in favor of fair use. See 4 William F. Patry, Patry on Copyright § 10:139.30 (2020)
(explaining that “the fact that a work is published does
not mean that the scope of fair use is per se broader”).
Mindful that the second factor “typically has not
been terribly significant in the overall fair use balancing,” Penguin Books, 109 F.3d at 1402, we conclude that
the creative nature of Go! weighs against fair use.

App. 21
C. The Amount and Substantiality of the
Use of Go! Weigh Against Fair Use
The third statutory factor asks whether “the
amount and substantiality of the portion used in relation to the copyrighted work as a whole” favor fair use.
17 U.S.C. § 107(3). We consider both “the quantitative
amount and qualitative value of the original work used
in relation to the justification for that use.” Seltzer, 725
F.3d at 1178. This factor circles back to the first factor
because “the extent of permissible copying varies with
the purpose and character of the use.” Campbell, 510
U.S. at 586–87.
The quantitative amount taken by Boldly is substantial. To be sure, we understand that “[t]he inquiry
under this factor is a flexible one, rather than a simple
determination of the percentage of the copyrighted
work used.” Monge, 688 F.3d at 1179. That said,
ComicMix’s copying was considerable—it copied “14 of
Go!’s 24 pages,” close to 60% of the book, and significant “illustrations from Grinch and two stories in
Sneetches.” Crucially, ComicMix did not merely take a
set of unprotectable visual units, a shape here and a
color patch there.5 For each of the highly imaginative
illustrations copied by ComicMix, it replicated, as
5

We are cautious not to overzealously decompose visual expression into its abstract, and thus unprotectable, units, because
that would mean that any amount of taking by ComicMix would
be permissible. See Knitwaves, Inc. v. Lollytogs Ltd., 71 F.3d 996,
1003 (2d Cir. 1995) (critiquing the view that “there can be no originality in a painting because all colors of paint have been used
somewhere in the past” (citation omitted)).

App. 22
much and as closely as possible from Go!, the exact
composition, the particular arrangements of visual
components, and the swatches of well-known illustrations.
ComicMix’s claim that it “judiciously incorporated
just enough of the original to be identifiable” as
Seussian or that its “modest” taking merely “alludes”
to particular Seuss illustrations is flatly contradicted
by looking at the books. During his deposition, Boldly
illustrator Templeton detailed the fact that he
“stud[ied] the page [to] get a sense of what the layout
was,” and then copied “the layout so that things are in
the same place they’re supposed to be.” The result was,
as Templeton admitted, that the illustrations in Boldly
were “compositionally similar” to the corresponding
ones in Go!. In addition to the overall visual composition, Templeton testified that he also copied the illustrations down to the last detail, even “meticulously
try[ing] to reproduce as much of the line work as [he
could].”
Again, we turn to Boldly itself for illustrative examples. Here, ComicMix replicated the overall composition and placement of the shapes, colors and detailed
linework.

App. 23
ComicMix also took the overall composition of a
Seuss illustration—the placement of the tree, the hills,
and the white space surrounding these elements. The
trees in both versions have the same exact number,
bends, and lengths of branches, with the same branch
in both versions hoisting a dangling figure. ComicMix’s
“ ‘verbatim’ copying of the original” weighs against fair
use. Campbell, 510 U.S. at 589.

The qualitative value used by Boldly is also substantial. The qualitative analysis often asks if the copyist took the “heart,” that is, “the most valuable and
pertinent portion,” of the work. L.A. News Serv., 305
F.3d at 940. Taking “the ‘heart’ of each individual
copyrighted picture,” tilts the third factor against fair
use. Monge, 688 F.3d at 1178.
ComicMix took the heart of Dr. Seuss’s works. For
example, ComicMix’s copying of a Sneetches illustration exhibits both the extensive quantitative and qualitative taking by ComicMix. Sneetches is a short Seuss
story about two groups of Sneetches: the snooty starbellied Sneetches and the starless ones. The story’s
plot, the character, and the moral center on a highly
imaginative and intricately drawn machine that can
take the star-shaped status-symbol on and off the

App. 24
bellies of the Sneetches. Different iterations of the machine, the heart of Sneetches, appear in ten out of
twenty-two pages of the book. See Penguin Books, 109
F.3d at 1402 (the element that “appear[s] in nearly
every image of [Cat]” is “the highly expressive core of
Dr. Seuss’[s] work”).
ComicMix took this “highly expressive core” of
Sneetches. Templeton testified that “the machine in the
Star-Bellied Sneetches story” was “repurposed to remind you of the transporter” in Star Trek. Drawing the
machine “took . . . about seven hours” because Templeton tried to “match” the drawing down to the “linework” of Seuss. He “painstakingly attempted” to make
the machines “identical.” In addition to the machine,
Boldly took “the poses that the Sneetches are in” so
that “[t]he poses of commander Scott and the Enterprise crew getting into the machine are similar.” Boldly
also captured the particular “crosshatch” in how Dr.
Seuss rendered the machine, the “puffs of smoke coming out of the machine,” and the “entire layout.”

Finally, we cannot countenance ComicMix’s argument that the amount taken is not substantial because
ComicMix used only five out of almost sixty Dr. Seuss

App. 25
books. This is fake math that distorts the result because ComicMix has identified the wrong denominator; the third factor looks at “the amount and
substantiality of the portion used in relation to the
copyrighted work as a whole,” not to the entire corpus
of the author. 17 U.S.C. § 107(3) (emphasis added). Under ComicMix’s theory, the more prolific the creator,
the greater license a copyist would have to copy and
imitate the original works. Nothing supports that argument.
Given the absence of a parody or a transformative
work, ComicMix offers no justification for the commercial exploitation and the extensive and meticulous
copying of Go!. In fact, after the case was initiated,
Gerrold offered to “replace the stuff that’s too dead on,”
demonstrating that the mash-up “based on Dr. Seuss’s
artwork” could have been created without wholesale
copying of the work. The third factor weighs decisively
against fair use.
D. The Potential Market for or Value of
Seuss Weighs Against Fair Use
The fourth and final fair use factor considers “the
effect of the use upon the potential market for or value
of the copyrighted work.” 17 U.S.C. § 107(4). Courts
must address “not only the extent of market harm
caused by the particular actions of the alleged infringer, but also ‘whether unrestricted and widespread
conduct of the sort engaged in by the defendant
would result in a substantially adverse impact on the

App. 26
potential market’ for the original” and “the market for
derivative works.” Campbell, 510 U.S. at 590 (quotation marks and citations omitted). Having found that
Boldly was transformative—a conclusion with which
we disagree—the district court also erred in shifting
the burden to Seuss with respect to market harm. That
shifting, which is contrary to Campbell and our precedent, led to a skewed analysis of the fourth factor.
Mindful of the Court’s directive to “eschew[ ] presumptions under this factor, we refrain from presuming harm in the potential market” for commercial uses
and “determine it in the first instance.” Monge, 688
F.3d at 1181. Still, we recognize that ComicMix’s nontransformative and commercial use of Dr. Seuss’s
works likely leads to “cognizable market harm to the
original.” Campbell, 510 U.S. at 591; see Penguin Books,
109 F.3d at 1403 (“Because, on the facts presented, [the
defendants’] use of [the Cat] original was nontransformative, and admittedly commercial, we conclude
that market substitution is at least more certain, and
market harm may be more readily inferred.”).
Not much about the fair use doctrine lends itself
to absolute statements, but the Supreme Court and our
circuit have unequivocally placed the burden of proof
on the proponent of the affirmative defense of fair use.
ComicMix tries to plow a new ground in contending
that fair use is not an affirmative defense and that the
burden shifts to Seuss to prove potential market harm.
Campbell squarely forecloses this argument: “[s]ince
fair use is an affirmative defense, its proponent would
have difficulty carrying the burden of demonstrating

App. 27
fair use without favorable evidence about relevant
markets.” Campbell, 510 U.S. at 590 (footnote omitted);
see also Harper & Row, 471 U.S. at 561. We have echoed
that principle. “[F]air use is an affirmative defense,”
thus requiring the defendant to “bring forward favorable evidence about relevant markets.” Penguin Books,
109 F.3d at 1403; see Monge, 688 F.3d at 1170 (“As with
all affirmative defenses, . . . the defendant bears the
burden of proof ” on fair use.).6
In an effort to distinguish controlling precedent,
ComicMix argues that in Lenz v. Universal Music
Corp., we deviated from our precedent construing fair
use as an affirmative defense. 815 F.3d 1145 (9th Cir.
2016). This view misreads Lenz, which involved fair
use in a different corner of the copyright law, the safe
harbor for Internet service providers under the Digital
Millennium Copyright Act (DMCA). We held that to
avoid liability under 17 U.S.C. § 512(f ), a copyright
holder must “consider the existence of fair use before
sending a takedown notification.” Id. at 1151, 1153; see
17, U.S.C. § 512(c)(3)(A). More pointedly, we examined
the nature of fair use emphatically “for the purposes of
the DMCA,” and explicitly went on to note that in that
context, “fair use is uniquely situated in copyright law
so as to be treated differently than traditional affirmative defenses.” Lenz, 815 F.3d at 1153. In no way did
6

Although the Eleventh Circuit has suggested that it is
sometimes “reasonable to place on Plaintiffs the burden of going
forward with evidence on” the fourth factor, see Cambridge Univ.
Press v. Patton, 769 F.3d 1232, 1279 (11th Cir. 2014), we have
never adopted this view.

App. 28
we deviate from our characterization of fair use as an
affirmative defense under § 107. To the contrary, in addition to clarifying that, unlike copyright misuse and
laches, fair use is not an excuse to copyright infringement, we reiterated that “the burden of proving fair
use is always on the putative infringer.” Id. at 1152–53
(quoting Bateman v. Mnemonics, Inc., 79 F.3d 1532,
1542 n.22 (11th Cir. 1996)).
Hence, ComicMix, as the proponent of the affirmative defense of fair use, “must bring forward favorable
evidence about relevant markets.” Penguin Books, 109
F.3d at 1403. Because ComicMix’s position is that it
does not bear the burden of proof, it does not argue the
adequacy of its scant evidence. ComicMix principally
relies on the expert report of Professor Joshua Gans.
The entire report is premised on Boldly being transformative, which it is not, and on the expert’s misunderstanding about fair use and U.S. copyright law. But
even if we put aside the false premises of the report,
and, for the sake of argument, credit its methodology
and conclusions, the report fails to account for key
fourth-factor considerations.7 We conclude that ComicMix did not meet its burden on the fourth factor.

7

Seuss moved to exclude the Gans report under Federal Rule
of Evidence 702. The district court denied the motion as moot because it did not rely on the report. We do not review the district
court’s ruling or otherwise offer our view on the motion. We
simply note that even if the Gans report is an admissible expert
opinion, it would be insufficient to tilt the fourth factor in ComicMix’s favor.

App. 29
First, ComicMix sidesteps the fact that it intentionally targeted and aimed to capitalize on the same
graduation market as Go!. The planned release date
for the first publication of Boldly was scheduled to
launch “in time for school graduations.” ComicMix
acknowledged that Boldly’s use of Go! will “resonate so
much, especially as a graduation gift for folks who
grew up reading Seuss.” The assertion that the two
works target different age groups is undermined by
ComicMix’s own admission that Boldly is “safe” for
five-year-olds and “a perfect gift for children and adults
of all ages.”
Nor does ComicMix address a crucial right for a
copyright holder—the derivative works market, an
area in which Seuss engaged extensively for decades.
See 17 U.S.C. § 106(2). A relevant derivative works
market includes “those that creators of original works
would in general develop or license others to develop.”
Campbell, 510 U.S. at 592. Seuss has already vetted
and authorized multiple derivatives of Go!, including
the following books: Oh, The Things You Can Do That
Are Good For You!; Oh, the Places I’ll Go! By ME, Myself; Oh, Baby, the Places You’ll Go!; and Oh, the Places
I’ve Been! A Journal. Recently, Seuss announced that
it has partnered with Warner Animation Group to
adapt Go! into an animated motion picture, scheduled
for theatrical release in 2027. See Dave McNary, Dr.
Seuss’ ‘Cat in the Hat’ Spinoff and ‘Oh, The Places
You’ll Go’ Getting Movie Adaptations, Variety (Oct. 1,
2020).

App. 30
Works like Boldly would curtail Go!’s potential
market for derivative works. This is not a case where
the copyist’s work fills a market that the copyright
owner will likely avoid, as is true for “a lethal parody”
or “a scathing theater review.” Campbell, 510 U.S. at
591–92. In fact, ComicMix hoped to get to one of the
potential markets for Seuss’s derivative works before
Seuss, believing that Seuss would “want to publish it
themselves and give [ComicMix] a nice payday.”
Crucially, ComicMix does not overcome the fact
that Seuss often collaborates with other creators, including in projects that mix different stories and
characters. Seuss routinely receives requests for collaborations and licenses, and has entered into various
collaborations that apply Seuss’s works to new creative
contexts, such as the television and book series entitled
The Wubbulous World of Dr. Seuss, a collaboration with
The Jim Henson Company, famous for its puppetry and
the creation of other characters like the Muppets.
Other collaborations include a digital game called
Grinch Panda Pop, that combines Jam City’s Panda
character with a Grinch character; figurines that combine Funko Inc.’s toy designs with Seuss characters;
and a clothing line that combines Comme des Garçons’
heart design with Grinch artwork.
ComicMix takes issue with Seuss’s apparent
choice not to license a mash-up based on Dr. Seuss’s
works sans Dr. Seuss’s characters. We say “apparent”
because ComicMix only infers, from Seuss’s style guide
for its licensees, that Seuss will not license a SeussStar Trek mash-up. But, of course, that claim is

App. 31
speculative because ComicMix never asked for a license or permission. Also, the law does not limit the
scope of the relevant market to products that are already made or in the pipeline. “The potential market
. . . exists independent of the [copyright owner]’s present intent.” Monge, 688 F.3d at 1181. Seuss certainly
has the right to “the artistic decision not to saturate
those markets with variations of their original,” Castle
Rock Ent., 150 F.3d at 146, and it has the right “to
change [its] mind,” Worldwide Church of God v. Phila.
Church of God, Inc., 227 F.3d 1110, 1119 (9th Cir.
2000).
Finally, ComicMix does not address a central aspect of market harm set out in Campbell—“whether
unrestricted and widespread conduct of the sort engaged in” by ComicMix would undermine Seuss’s potential market. 510 U.S. at 590 (quotation marks and
citation omitted). This aspect is particularly significant
here because of Seuss’s strong brand. ComicMix’s effort to use Seuss’s success against it falls flat. As noted
by one of the amici curiae, the unrestricted and widespread conduct of the sort ComicMix is engaged in
could result in anyone being able to produce, without
Seuss’s permission, Oh the Places Yoda’ll Go!, Oh the
Places You’ll Pokemon Go!, Oh the Places You’ll Yada
Yada Yada!, and countless other mash-ups.8 Thus, the
unrestricted and widespread conduct of the sort engaged in by ComicMix could “create incentives to
8

Brief of Amici Curiae of Professors Peter S. Menell,
Shyamkrishna Balganesh, and David Nimmer in Support of
Petitioners at 2.

App. 32
pirate intellectual property” and disincentivize the creation of illustrated books. Monge, 688 F.3d at 1182.
This is contrary to the goal of copyright “[t]o promote
the Progress of Science.” U.S. Const. art. I, § 8, cl. 8.
The bottom line is that ComicMix created, without
seeking permission or a license, a non-transformative
commercial work that targets and usurps Go!’s potential market. ComicMix did not carry its burden on the
fourth factor. Based on our weighing of the statutory
factors “in light of the purposes of copyright,” we conclude that ComicMix cannot sustain a fair use defense.
See Campbell, 510 U.S. at 578. The district court erred
in granting summary judgment in favor of ComicMix.
II.

SEUSS DOES NOT HAVE A COGNIZABLE TRADEMARK INFRINGEMENT CLAIM AGAINST COMICMIX

Seuss also claims that ComicMix infringed its registered and common law trademarks in the title of Go!,
as well as common law trademarks in the “Seussian
style of illustration” and “the Seussian font.” We do not
express a view as to whether the Seussian style of illustration and font are valid common law trademarks,
because Seuss’s trademark infringement claim fails as
a matter of law.
The allegedly infringing use of trademarks in an
expressive work like Boldly raises the threshold question of whether the Lanham Act applies. The Rogers
test, first articulated by the Second Circuit and later
adopted by our court, balances artistic free expression and trademark rights to determine whether the

App. 33
Lanham Act applies. See Rogers v. Grimaldi, 875 F.2d
994, 999 (2d Cir. 1989); Mattel, Inc. v. MCA Records,
Inc., 296 F.3d 894, 902 (9th Cir. 2002) (adopting the
Rogers test); E.S.S. Entm’t 2000, Inc. v. Rock Star Videos, Inc., 547 F.3d 1095, 1099 (9th Cir. 2008) (expanding the Rogers test from the use of a trademark in a
title to the body of the expressive work). Under the
Rogers test, the trademark owner does not have an actionable Lanham Act claim unless the use of the trademark is “either (1) not artistically relevant to the
underlying work or (2) explicitly misleads consumers
as to the source or content of the work.” VIP Prods. LLC
v. Jack Daniel’s Props., Inc., 953 F.3d 1170, 1174 (9th
Cir. 2020) (quotation marks omitted). Neither of these
prongs is easy to meet.
As to the first prong, any artistic relevance “above
zero” means the Lanham Act does not apply unless the
use of the trademark is explicitly misleading. Twentieth Century Fox Television v. Empire Distribution, Inc.,
875 F.3d 1192, 1198 (9th Cir. 2017) (citing E.S.S.
Entm’t, 547 F.3d at 1100); see also Brown v. Elec. Arts,
Inc., 724 F.3d 1235, 1245 (9th Cir. 2013) (explaining
that “even the slightest artistic relevance” is enough).
Boldly easily surpasses this low bar: as a mash-up of
Go! and Star Trek, the allegedly valid trademarks in
the title, the typeface, and the style of Go! are relevant
to achieving Boldly’s artistic purpose.
Nor is the use of the claimed Go! trademarks “explicitly misleading,” which is a high bar that requires
the use to be “an ‘explicit indication,’ ‘overt claim,’ or
‘explicit misstatement’ ” about the source of the work.

App. 34
Brown, 724 F.3d at 1245. Thus, although titling a book
“Nimmer on Copyright,” “Jane Fonda’s Workout Book,”
or “an authorized biography” can explicitly misstate
who authored or endorsed the book, a title that “include[s] a well-known name” is not explicitly misleading if it only “implicitly suggest[s] endorsement or
sponsorship.” Rogers, 875 F.2d at 999–1000 (emphasis
added).
Boldly is not explicitly misleading as to its source,
though it uses the Seussian font in the cover, the
Seussian style of illustrations, and even a title that
adds just one word—Boldly—to the famous title—
Oh, the Places You’ll Go!. Seuss’s evidence of consumer
confusion in its expert survey does not change the result. The Rogers test drew a balance in favor of artistic
expression and tolerates “the slight risk that [the use
of the trademark] might implicitly suggest endorsement or sponsorship to some people.” Id. at 1000.
A contrary result is not compelled by our recent
decision in Gordon v. Drape Creative, Inc., involving a
registered trademark for, among other things, greeting
cards. 909 F.3d 257 (9th Cir. 2018). The mark—“Honey
Badger Don’t Care”—is a popular comical statement
that represents an “aggressive assertion of apathy.” Id.
at 268–69. The defendant created greeting cards featuring, on the front, a honey badger and an indication
of the occasion the card is designed for (birthday,
Halloween, etc.), and on the inside, the punchline:
“Honey Badger Don’t Care.” Id. at 260–62. Gordon
“demonstrate[d] Roger’s outer limits,” where the defendant’s expressive work consisted of the mark and

App. 35
not much else. Id. at 261, 268–69. Under this scenario,
the court concluded that there was a triable issue of
fact as to whether the mark was explicitly misleading.
Id. at 271.
Boldly does not test the “outer limits” of Rogers.
We reiterated in Gordon that because “use of a trademark alone” is not necessarily determinative, two
“more relevant consideration[s]” weigh in evaluating
whether the mark is explicitly misleading: (1) “the degree to which the junior user uses the mark in the
same way as the senior user” and (2) “the extent to
which the junior user has added his or her own expressive content to the work beyond the mark itself.”
Gordon, 909 F.3d at 270–71 (quoting E.S.S. Entm’t, 547
F.3d at 1100) (citing Rogers, 875 F.2d at 999). Here,
ComicMix has used the marks in an illustrated book
just as Seuss did, but unlike with the greeting cards in
Gordon, ComicMix has “added . . . expressive content
to the work beyond the mark itself.” Id. at 270. Also,
the cover conspicuously lists David Gerrold and Ty
Templeton, not Dr. Seuss, as authors, and Boldly states
that it is “not associated with or endorsed by” Seuss. In
consideration of “all the relevant facts and circumstances,” the alleged use of Seuss’s trademarks is not
explicitly misleading. Id. at 269 (quoting Rogers, 875
F.2d at 1000 n.6). We affirm the district court’s denial
of Seuss’s trademark claim because the Lanham Act
does not apply here.

App. 36
CONCLUSION
This appeal involves two different contexts in
which an author’s expression collides with the intellectual property rights in existing works. Here, the results for the copyright and the trademark claims
diverge. Although Boldly did not make fair use of the
copyrighted expression in Go!, Boldly’s use of Go!
trademarks was permitted under the Rogers test. Accordingly, we affirm the district court’s Rule 12(c) dismissal and summary judgment in favor of ComicMix
as to the trademark infringement claim, but reverse
and remand the district court’s grant of summary judgment in favor of ComicMix as to copyright fair use.
AFFIRMED in PART; REVERSED and REMANDED in PART for proceedings consistent
with this opinion.
Each party shall pay its own costs on appeal.

App. 37
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
DR. SEUSS ENTERPRISES, L.P.,
a California limited
partnership

Case No.:
16-CV-2779 JLS (BGS)

ORDER (1) GRANTING
DEFENDANTS’ MOTION
Plaintiff, FOR SUMMARY JUDGMENT, (2) DENYING
v.
PLAINTIFF’S MOTION
COMICMIX LLC, a
FOR SUMMARY JUDGConnecticut limited
MENT, AND (3) DENYING
liability company;
AS MOOT PLAINTIFF’S
GLENN HAUMAN,
MOTIONS TO STRIKE
an individual; DAVID
AND TO EXCLUDE
JERROLD FRIEDMAN
(ECF Nos. 104, 107, 108,
a/k/a DAVID GERROLD,
116)
and individual; and
(Filed Mar. 12, 2019)
TY TEMPLETON,
an individual,
Defendants.
Presently before the Court are Plaintiff Dr. Seuss
Enterprises, L.P.’s Motions to Exclude Gans Testimony
Under Federal Rule of Evidence 702 (“Mot. to Exclude,”
EC No. 104), for Summary Judgment (“Pl.’s MSJ,” ECF
Nos. 107, 109, 1151), and to Strike Declaration of Dan

1

The Court granted the Parties leave to file several of their
filings under seal on the grounds that they had been designed
“Confidential” or “Highly Confidential” under the Protective
Order in this case. See ECF Nos. 114, 123, 134, 142.

App. 38
Booth (“Mot. to Strike,” ECF No. 116) and Defendants
ComicMix LLC, Glenn Hauman, David Jerrold Friedman a/k/a David Gerrold, and Ty Templeton’s Motion
for Summary Judgment Pursuant to Fed. R. Civ. P. 56
(“Defs.’ MSJ,” ECF Nos. 108, 110). Also before the Court
are Plaintiff ’s response in opposition to Defendants’
Motion for Summary Judgment (“Pl.’s MSJ Opp’n,”
ECF Nos. 119, 124); Defendants’ responses in opposition to Plaintiff ’s Motion for Summary Judgment
(“Defs.’ MSJ Opp’n,” ECF Nos. 120, 125), Motion to
Exclude (ECF No. 126), and Motion to Strike (ECF No.
133); Plaintiff ’s replies in support of its Motion to Exclude (ECF No. 141), Motion for Summary Judgment
(“Pl.’s MSJ Reply,” ECF Nos. 140, 143), and Motion to
Strike (ECF No. 145); and Defendants’ reply in support
of their Motion for Summary Judgment (“Defs.’ MSJ
Reply,” ECF Nos. 130, 135). The Court heard oral argument on February 7, 2019. Having considered the Parties’ arguments, the law, and the record, the Court
GRANTS Defendants’ Motion for Summary Judgment
(ECF No. 108), DENIES Plaintiff ’s Motion for Summary Judgment (ECF No. 107), and DENIES AS
MOOT Plaintiff ’s Motions to Exclude (ECF No. 104)
and to Strike (ECF No. 116).

App. 39
BACKGROUND
Undisputed Facts2

I.

A. Plaintiff and Its Copyrighted Works
Plaintiff is the owner, by assignment, of the copyrights to the works of Theodor S. Geisel, the author and
illustrator of the books written under the pseudonym
“Dr. Seuss.” Pl.’s Statement of Undisputed Material
Facts in Support of Pl.’s MSJ (“SOF”), ECF No. 115-1,
¶¶ 1–4. Mr. Geisel wrote and illustrated the works at
issue here: Oh, the Places You’ll Go! (“Go!”); How the
Grinch Stole Christmas! (“Grinch”); and The Sneetches
and Other Stories (“Sneetches”) (collectively, the “Copyrighted Works”). Id. ¶¶ 2–7. The Copyrighted Works
are duly registered for copyright with the Copyright
Office and all copyrights remain in force. Id. ¶¶ 2–4.
Although Mr. Geisel passed away in 1991, Plaintiff
oversees a robust publishing program, working closely
with its publishers to release anniversary editions, reissues in new formats or sizes, and updated editions of
the iconic Dr. Seuss books, including the Copyrighted
Works. Id. ¶¶ 51, 128–37.
Plaintiff also licenses authors and illustrators to
publish additional works under the Dr. Seuss brand.
Id. ¶¶ 51, 134–35. For example, Plaintiff ’s series The
Cat In The Hat Learning Library includes books written and illustrated by other authors that are based
2

Plaintiff ’s recitation of the facts is largely undisputed. Accordingly, the Court borrows liberally from Plaintiff ’s recitation
of the facts, see Pl.’s MSJ at 2–10, and Defendants’ response. See
Defs.’ MSJ Opp’n at 3–15.

App. 40
upon and incorporate Mr. Geisel’s works. Id. ¶ 134.
This series includes titles such as Oh, the Things You
Can Do That Are Good For You!, There’s No Place Like
Space!, and Oh, the Pets You Can Get! Id. ¶ 135. Plaintiff has also licensed the publication of several books
that are derivative of the Copyrighted Works, including Go!: Oh, Baby! Go, Baby!; Oh, the Places I’ll Go! By
ME, Myself, Oh, Baby, the Places You’ll Go!; and Oh, the
Places I’ve Been! Journal. Id. ¶ 142. These books continue the style of the original Dr. Seuss books, and
Plaintiff provides close quality control to ensure consistency of style and quality. Id. ¶¶ 129–31.
While children may be the intended readers for
many of Dr. Seuss’ works, adults buy them, too, and
Plaintiff therefore markets the works to both children
and adults. Id. ¶¶ 146–49. Other Dr. Seuss works, including Go!, are also aimed at teenagers and adults,
and are therefore marketed to both age groups. Id.
¶¶ 147–48. Additionally, Go! is a very popular gift for
graduates, and is Plaintiff ’s best-selling book, and the
perennial number one selling book on The New York
Times Best Sellers list each spring during graduation
season. Id. ¶¶ 141, 148.
Plaintiff is not just a publisher; it is also in the
entertainment business, licensing Dr. Seuss works for
development of films, television, stage productions,
theme parks, and museum exhibitions. Id. ¶ 138.
Plaintiff also runs an extensive product licensing and
merchandising program. Id. ¶¶ 138–39, 144. In fact, in
2017, Plaintiff was named the top licensed book brand
according to NPD, a market industry research firm. Id.

App. 41
¶ 159. Importantly for purposes of this case, Plaintiff
collaborates with other intellectual property holders
on collaborations that combine Dr. Seuss’ works with
those holders’ creations to develop new works and
products that have combined appeal to larger audiences. Id. ¶¶ 150–56. For example, Plaintiff and its
partners have created The Wubbulous World of Dr.
Seuss, a television and book series with The Jim Henson Company that featured “muppetized” Dr. Seuss
characters; Grinch Panda Pop, a digital game that
combines Jam City’s Panda character with the Grinch
character; Dr. Seuss Funko figurines, which combine
Funko Inc.’s distinctive toy designs with Dr. Seuss
characters; and a line of Comme des Garcons clothing
combining Comme des Garcons’ well-known heart design with Grinch artwork. Id. ¶¶ 154–56. Many more
collaborations are in the works. Id. ¶ 156.
Plaintiff receives numerous offers from parties
wishing to work with DSE on a collaboration or license
Plaintiff ’s intellectual property. Id. ¶ 157. Plaintiff approaches these offers selectively, and when Plaintiff
considers whether to pursue a collaboration with another intellectual property holder, it first carefully vets
the collaborator. Id. ¶ 130. If Plaintiff decides to move
forward, it works extensively with the collaborator and
maintains tight control over the work. Id. ¶ 129, 131.

App. 42
B. Defendants and Boldly
1. Conception and Development of Oh, the
Places You’ll Boldly Go!
Mr. Gerrold has written Star Trek episodes for
Paramount Pictures, the producer of the Star Trek television show. Declaration of Tamar Duvdevani in Support of Pl.’s MSJ (“Duvdevani Decl.”) Ex. 2, ECF No.
107-24, at 16:14–17:24. In May 2016, Mr. Gerrold suggested to Mr. Hauman that, “if we could get a license,
we should do a Star Trek Primer.” SOF ¶ 8. The original idea was to combine Star Trek themes with the preschool book Pat the Bunny, id. ¶ 9, although they also
considered using Fun with Dick & Jane, Goodnight
Moon, and The Very Hungry Caterpillar, id. ¶ 15, before
finally settling on Go!
Mr. Templeton is an illustrator adept at copying
other illustrators’ styles. Id. ¶ 32. In June 2016, Mr.
Hauman invited Mr. Templeton to join the project, instructing Mr. Templeton that “this would be Seussstyle [(Star Trek: The Original Series)] backgrounds,”
Duvdevani Decl. Ex. 25, ECF No. 107-39, at 423,3 and
that “we’re going to want the cover and at least a background art piece for promotions, as well as be able to
use the cover for posters, mugs, and all the merchandise that will push this thing over the top.” Id. at 424.
Mr. Templeton responded, “Holy CRAP that’s a cool

3

Those of Plaintiff ’s exhibits lacking native pagination will
be cited according to the pagination Plaintiff has provided.

App. 43
idea. The title is like printing money. I’m totally in.”
SOF ¶ 30.
With the team in place, Defendants set out to
create Oh, the Places You’ll Boldly Go! (“Boldly”). Although concerned about their project’s legal risk, Mr.
Gerrold and Mr. Hauman concluded that their proposed project would likely qualify as a “parody” of the
source material and therefore constitute a fair use. Id.
¶¶ 10–12, 16–18, 23–24. Each of Mr. Templeton, Mr.
Gerrold, and Mr. Hauman testified that he considered
Boldly a parody, a mash-up, and a transformative
work. See, e.g., Duvdevani Decl. Ex. 1, ECF No. 107-23,
at 120:14–23; Duvdevani Decl. Ex. 2 at 68:7–8, 77:19–
78; Duvdevani Decl. Ex. 3, ECF No. 107-25, at 75:23–
76:11. They also did not anticipate that Boldly would
compete with Go! or any other of the Copyrighted
Works. See, e.g., Duvdevani Decl. Ex. 2 at 43:3–45:1;
Duvdevani Decl. Ex. 3 at 185:18–186:3.
But each Defendant also testified that he copied
from the Copyrighted Works to create Boldly. SOF
¶ 33–34, 52–55, 57, 65. Indeed, Mr. Hauman scanned a
copy of Go! to Mr. Gerrold because he wanted to “parallel [Go!] as close as [he] c[ould].” Id. ¶ 34. Although
Mr. Gerrold had written his first draft “from scratch”
and without access to Go!, he later rewrote Boldly’s
text to more closely match Go! Id. ¶ 35. Mr. Hauman
created a side-by-side comparison of Go!’s and Boldly’s
text, id. ¶¶ 34, 57, to assist himself and Mr. Gerrold
in their effort “to parallel the structure of [Go!].”
Duvdevani Decl. Ex. 2 at 95:7–8.

App. 44
Mr. Templeton testified as to his process for illustrating Boldly:
I would have the original book open to what I
was looking at. I would rough out the positions the characters are in. After I was satisfied with the position that the characters are
in being similar enough to evoke the original
source material, I would render them as carefully as I could.
Duvdevani Decl. Ex. 1 at 171:3–9. For example, Mr.
Templeton’s illustration of one page took him about
seven hours because he “painstakingly attempted to
make” his illustration “nearly identical” in certain respects to one illustrated by Dr. Seuss. Id. at 167:1–17.
Mr. Hauman instructed Mr. Templeton to “go closer to”
Go!, SOF ¶¶ 37, 49, 53, and Mr. Templeton later admitted, “I did, in fact, slavishly copy from Seuss,” to
illustrate Boldly. Id. ¶ 54. This was because it was “essential to the parody . . . that people recognize the
source material in poses since they WON’T be seeing
the Grinch or the Whos or the Gox” or any other character from Dr. Seuss, and Mr. Templeton was therefore
“concerned if we try to completely ignore everything
about the source material the gags fall apart.”
Duvdevani Decl. Ex. 68, ECF No. 107-64, at 609.
Defendants included two disclaimers on the copyright page of the unpublished, “completed” draft of
Boldly. Duvdevani Decl. Ex. 31, ECF No. 115-11, at
452. The first read: “This is a work of fair use, and is
not associated with or endorsed by CBS Studio or Dr.
Seuss Enterprises, L.P.” Id. The second disclaimer

App. 45
read, “Copyright Disclaimer under section 107 of the
Copyright Act 1976, allowance is made for ‘fair use’ for
purposes such as criticism, comment, news reporting,
teaching, scholarship, education, research, and parody.” Id. The copyright page further attributes the
copyright and trademarks in Boldly to Mr. Gerrold and
Mr. Templeton—not to Plaintiff. Id.
2. Plans to Publish and Sell Boldly
In July 2016, Mr. Hauman contacted John Frazier,
a merchant at ecommerce retailer ThinkGeek, to assess interest in handling merchandise, printing and
distribution for Boldly. SOF ¶ 41. Mr. Frazier advised
Mr. Hauman that, while ThinkGeek did not manufacture books, it could handle distribution for Boldly, but
stated: “It goes without saying you’ve got the license,
though, right?” Duvdevani Decl. Ex. 29, ECF No. 10742, at 441. Mr. Hauman replied to Mr. Frazier, “No license, this is straight parody fair use of both Seuss and
Trek,” but “I realize this may complicate matters for
you and cause you to pass” and, “if so, I completely understand and no hard feelings.” Id.
ThinkGeek eventually ordered 5,000 copies of
Boldly, if they could be printed and delivered in time
for Christmas sales. SOF ¶ 93. On July 19, 2016, Mr.
Hauman wrote an e-mail to another third-party stating: “[H]ad a conversation with the senior buyer for
ThinkGeek, and we’ll be selling them a lot of stuff.
(I was hoping they’d even handle fulfillment on

App. 46
merchandise, but since this is unlicensed it seems unlikely.).” Duvdevani Decl. Ex. 30, ECF No. 107-43, at
444.
On August 31, 2016, Defendants launched a fundraising campaign on Kickstarter.com to pay for the production costs and fixed costs for creating Boldly. SOF
¶ 66. Defendants never contacted Plaintiff or CBS/Paramount for a license, id. ¶ 10, but told the public, in the
“Risks and Challenges” section of their Kickstarter
campaign:
While we firmly believe that our parody, created with love and affection, fully falls within
the boundary of fair use, there may be some
people who believe that this might be in violation of their intellectual property rights.
And we may have to spend time and money
proving it to people in black robes. And we
may even lose that.
Id. ¶ 67. The Kickstarter campaign ran through September 30, 2016, netting 727 backers who pledged
$29,575 to the project. See Duvdevani Decl. Ex. 40,
ECF No. 107-50, at 522.
Allison Adler, an editor at publisher Andrews
McMeel Publishing (“AMP”), saw the Kickstarter page,
reached out to Defendants, and subsequently presented a proposal to AMP’s Acquisitions Committee for
publishing Boldly, describing the intended audience as
“Graduates and parents of graduates (college, high
school, 8th grade); fans of Star Trek; fans of Dr. Seuss.”
Id. ¶¶ 73–77, 80.

App. 47
Mr. Hauman and Ms. Adler spoke and exchanged
several e-mails. Id. ¶¶ 80, 82–85, 87–88, 90. Mr. Hauman
disclosed to Ms. Adler his discussions with ThinkGeek,
that Defendants were considering sequels to Boldly
(“Picard Hears A Q” and “One Kirk, Two Kirk, Red
Shirt, Blue Shirt”), and that Defendants wanted to create merchandise for Boldly, depending on “what can be
done legally with and without permission.” Id. ¶¶ 72,
85.
On September 19, 2016, AMP sent Mr. Hauman an
offer to publish Boldly and, following several rounds of
correspondence, the parties reached a “letter of agreement” on the principal terms on September 21, 2016.
Id. ¶¶ 87–90. By September 27, 2016, AMP’s VP of
Sales advised Ms. Adler to “do an on-sale date” of February 28, 2017, “for the trade,” Duvdevani Decl. Ex. 57,
ECF No. 115-22, at 583, so “we can try and capture
some grad biz.” Duvdevani Decl. Ex. 58, ECF No. 11523, at 586.
3. Plaintiff ’s Demand Letters and Litigation
After learning about Boldly, Plaintiff sent Defendants three letters, dated September 28, October 7, and
October 25, 2016, demanding that Defendants immediately cease all use of the Copyrighted Works. SOF
¶¶ 104–06. Plaintiff also sent a DMCA takedown notice to Kickstarter on October 7, 2016. Id. ¶ 69.
On September 28, 2016—the date the first letter
was sent to Defendants—Mr. Hauman forwarded it to
Ms. Adler of AMP. Id. ¶ 94. The next day, AMP’s

App. 48
President advised that “the risk of moving forward is
not something we can take on,” and AMP withdrew
from the project. Id. ¶¶ 95–97. Defendants did not send
the letters to ThinkGeek. See id. ¶ 118.
Defendants retained counsel on October 26, 2018,
and sent Plaintiff a responsive letter on October 28,
2016, which refused DSE’s demands, threatened legal
claims, and advised that Defendants would be sending
a counter-notice to Kickstarter to reinstate its campaign, which they did on October 31, 2016. Id. ¶ 107–
09.
Plaintiff filed this infringement action on November 10, 2016. ECF No. 1. After receiving the Complaint,
Mr. Gerrold suggested that re-drawing the illustrations could be a “way out” of the litigation:
A lot of our artwork is based on Dr. Seuss’s
artwork. What if we did whole new artwork,
not specifically based on any individual drawing by Seuss, but close enough to his style to
match the text. If we replace the stuff that’s
too dead on – yes, its extra work for Ty [Templeton], but it really weakens their case.
Duvdevani Decl. Ex. 24, ECF No. 107-38, at 421. Mr.
Templeton admitted that he “did, in fact, slavishly copy
from Seuss,” and noted that “[i]n my original layouts
for our book, I was ignoring the layouts for [Go!] book,
and just trying for a S[eu]ssian art style.” Id. Mr. Templeton offered to revise the artwork to follow Go! less
closely. Id.

App. 49
On November 15, 2016, Mr. Hauman notified
ThinkGeek about Plaintiff ’s claims. SOF ¶ 125. On
February 2, 2017, ThinkGeek contacted Mr. Hauman
for an update, as it would “LOVE to be able to offer
[Boldly] for Graduation.” Duvdevani Decl. Ex. 66, ECF
No. 107-62, at 605. Mr. Hauman replied, “I would
LOVE to offer it to you, but the lawsuit grinds on.” Id.
Boldly remains unpublished. See, e.g., Duvdevani Decl.
Ex. 3 at 139:6–140:3.
II.

Procedural Background

Many of the issues raised by Plaintiff ’s and Defendants’ Motions for Summary Judgment have been
addressed previously in the course of the extensive motion practice in this case.
A. Defendants’ First Motion to Dismiss
Following the filing of Plaintiff ’s Complaint on November 10, 2016, see ECF No. 1, Defendants moved to
dismiss Plaintiff ’s copyright claims on the grounds of
fair use and its trademark claims on the grounds that
Plaintiff held no cognizable trademark rights in the
title, artistic style, or fonts used in Go! and, if it did,
Defendants’ use was protected by the First Amendment under Rogers v. Grimaldi, 875 F.2d 994 (2d Cir.
1989), and constituted a nominative fair use. See ECF
No. 8.
On June 9, 2017, the Court granted in part and
denied in part Defendants’ first motion to dismiss. See

App. 50
generally ECF No. 38. Regarding Defendants’ fair use
defense, the Court found that Boldly is “a highly transformative work that takes no more than necessary to
accomplish its transformative purpose and will not impinge on the original market for Plaintiff ’s underlying
work.” Id. at 12. Although the Court declined to find
that Boldly is a parody, the Court concluded that
Boldly “is no doubt transformative.” Id. at 8. Acknowledging that Defendants did intend to profit from
Boldly, the Court concluded that the weight given Defendants’ commercial purpose “is slight given both the
transformative nature of the work . . . and the fact that
Boldly does not supplant the market for Go! or the
other relevant Dr. Seuss works.” Id. The Court concluded that the creative nature of the Copyrighted
Works weighed slightly in Plaintiff ’s favor, id. at 9,
while the amount and substantiality of the Copyrighted Works Defendants used did “not weigh against
Defendants” because Boldly did not copy elements
from Go! and the other Copyrighted works “in their
entirety” and did not “copy more than is necessary to
accomplish its transformative purpose.” Id. at 9–10. Finally, accepting Plaintiff ’s allegations as true, the
Court concluded that the Court had to presume some
degree of harm to Plaintiff ’s licensing opportunities,
although “this presumed harm is neutralized somewhat by the fact that Boldly does not substitute for the
original and serves a different market function than
Go!” because “Boldly’s market relies on consumers who
have already read and greatly appreciated Go! and Dr.
Seuss’s other works, and who simultaneously have a
strong working knowledge of the Star Trek series,”

App. 51
rendering it “unlikely that Boldly would severely impact the market for Dr. Seuss’s works.” Id. at 11. “Ultimately, given the procedural posture of this motion and
near-perfect balancing of the factors, the Court” denied
Defendants’ first motion as to fair use. Id. at 13.
As to Plaintiff ’s trademark and unfair competition
claims, the Court recognized that the Rogers test was
applicable, see id. at 14–16, concluding that “there is
no question that Defendants’ invocation of Plaintiff ’s
alleged trademarks is relevant to Boldly’s artistic purpose,” id. at 15, and that “Boldly does not explicitly mislead as to its source or contents.” Id. at 16. Nonetheless,
the Court declined to grant Defendants’ motion regarding Plaintiff ’s alleged trademark in Go!’s title because
Defendants failed to address Plaintiff ’s argument
concerning confusingly similar titles. Id. at 17. The
Court granted Defendants’ motion to dismiss Plaintiff ’s trademark claims on nominative fair use grounds
because Plaintiff failed to oppose Defendants’ arguments on the merits. Id. at 18–19. Given the dismissal
of Plaintiff ’s trademark claims, the Court also dismissed its unfair competition claims. Id. at 19. Nonetheless, the Court granted Plaintiff leave to file an
amended complaint regarding its trademark and unfair competition causes of action. See id. at 20.

App. 52
B. Defendants’ Second Motion to Dismiss
Plaintiff filed the operative Amended Complaint
on June 22,2017, see ECF No. 39, which Defendants
again moved to dismiss. See ECF No. 41. The Court denied Defendants’ motion. See generally ECF No. 51. As
to Defendants’ fair use defense, although the Court
found no “reason to alter its analysis regarding the
first three factors,” see id. at 6, the Court re-examined
the fourth factor, concluding that it would “not presume market harm” because it had found that Boldly
was transformative. Id. at 9. Based on Plaintiff ’s allegations, however, the Court concluded that there was
“potential harm to the market for Plaintiff ’s derivative
works” and that the factor favored Plaintiff. Id.
As for Plaintiff ’s trademark and unfair competition claims, the Court concluded that the title of Go!
may be entitled to trademark protection, id. at 13, but
that “Plaintiff ’s claimed general ‘illustration style’ is
not protectable.” Id. at 15. The Court therefore focused
on Plaintiff ’s allegations concerning the use of the title
of Go! and its font in analyzing Defendants’ nominative fair use arguments. Id. Although the Court determined that there was no descriptive substitute for the
title of the book and it was necessary for Boldly to use
Go!’s title, id. at 19, and that Defendants did “nothing
in conjunction with the use of the mark to suggest a
sponsorship or endorsement by Plaintiff,” id. at 23, the
Court concluded that “it was unnecessary for Defendants to use the distinctive font as used on Go! to communicate their message (i.e., that Boldly is a mash-up
of the Go! and Star Trek universes).” Id. at 21–22. As

App. 53
before, the same result was applicable to Plaintiff ’s unfair competition claims. See id. at 23–24.
C. Defendants’ Motions for Judgment on the
Pleadings and Issuance of a Request to
the Register of Copyrights Pursuant to 17
U.S.C. § 411(b)(2)
On December 21, 2017, Defendants answered the
First Amended Complaint, see ECF No. 53, and moved
for judgment on the pleadings of Plaintiff ’s trademark
and unfair competition claims under Rogers as applied
by the Ninth Circuit’s recent decision in Twentieth
Century Fox Television v. Empire Distribution, Inc.,
No. 16-55577 (9th Cir. Nov. 16, 2017). See ECF No. 54.
On December 22, 2017, Defendants also filed a motion
for issuance of request to the register of copyrights pursuant to 17 U.S.C. § 411(b)(2), on the basis that Mr.
Geisel’s copyright registration applications for Go! and
Sneetches were knowingly and materially inaccurate
and incomplete. See ECF No. 57.
On May 21, 2018, the Court denied Defendants’
motion for issuance of a request to the register of copyrights, see ECF No. 88, and granted in part and denied
in part Defendants’ motion for judgment on the pleadings. See ECF No. 89. With respect to the motion for
judgment on the pleadings, as before, the Court concluded that Defendants’ invocation of Plaintiff ’s trademarks was relevant to Boldly’s artistic purpose and
content. Id. at 6–7. The Court also concluded that “Defendants’ use of the text and design of Go!’s title is not

App. 54
enough to be an ‘explicit misstatement’ as to the source
or content of the work. Id. at 7–8. The Court therefore
concluded that “the title of Boldly does not violate the
Lanham Act” and dismissed Plaintiff ’s trademark and
unfair competition claims to the extent they related to
the title of Boldly. Id. at 8–9. The Court explicitly reserved judgment as to “whether or not Plaintiff has
protectable trademark rights in the font and illustration style of Go!” Id. at 8.
As for Defendants’ motion under Section 411(b)(2),
Defendants claimed that “The Sneetches” was published in a July 1953 issue of Redbook and that “The
Zax” was published in the March 1954 issue, but that
Mr. Geisel failed timely to renew the copyright for either story. ECF No. 57 at 3–4. Further, when Mr. Geisel
applied to register the copyright in Sneetches, he failed
to indicate that Sneetches contained these previously
published works. Id. at 4–5. Go! also included a page
derived from Mr. Geisel’s previously published work
“The Economic Situation Clarified: A Prognostic ReEvaluation,” id. at 78, the prior publication of which
was not identified in the registration application for
Go! Id. at 10–11. Defendants therefore requested that
the Court request the Register of Copyrights to advise
whether the inaccurate information in the registration
applications for Sneetches and Go!, if known, would
have caused her to refuse the registrations. See generally ECF No. 57. The Court rejected Defendants’ arguments, concluding that the Redbook stories “were not a
‘substantial part’ of the” Sneetches, ECF No. 88 at 8,
and that “Go! did not incorporate a substantial amount

App. 55
of preexisting material from ‘Economic Situation.’ ” Id.
at 9.
MOTIONS FOR SUMMARY JUDGMENT
I.

Legal Standard

Under Federal Rule of Civil Procedure 56(a), a
party may move for summary judgment as to a claim
or defense or part of a claim or defense. Summary judgment is appropriate where the Court is satisfied that
there is “no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986). Material facts are those that may affect the outcome of the case. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). A genuine dispute of
material fact exists only if “the evidence is such that a
reasonable jury could return a verdict for the nonmoving party.” Id. When the Court considers the evidence
presented by the parties, “[t]he evidence of the nonmovant is to be believed, and all justifiable inferences
are to be drawn in his favor.” Id. at 255 (citing Adickes
v. S. H. Kress & Co., 398 U.S. 144, 158–159 (1970)).
The initial burden of establishing the absence of a
genuine issue of material fact falls on the moving
party. Celotex, 477 U.S. at 323. The moving party may
meet this burden by identifying the “portions of ‘the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,’ ”
that show an absence of dispute regarding a material
fact. Id. (quoting Fed. R. Civ. P. 56(c)). When a plaintiff

App. 56
seeks summary judgment as to an element for which it
bears the burden of proof, “it must come forward with
evidence which would entitle it to a directed verdict if
the evidence went uncontroverted at trial.” C.A.R.
Transp. Brokerage Co. v. Darden Rests., Inc., 213 F.3d
474, 480 (9th Cir. 2000) (quoting Houghton v. South,
965 F.2d 1532, 1536 (9th Cir. 1992)).
Once the moving party satisfies this initial burden, the nonmoving party must identify specific facts
showing that there is a genuine dispute for trial. Celotex, 477 U.S. at 324. This requires “more than simply
show[ing] that there is some metaphysical doubt as
to the material facts.” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586 (1986). Rather,
to survive summary judgment, the nonmoving party
must “by her own affidavits, or by the ‘depositions, answers to interrogatories, and admissions on file,’ designate ‘specific facts’ ” that would allow a reasonable fact
finder to return a verdict for the non-moving party.
Celotex, 477 U.S. at 324; Anderson, 477 U.S. at 248. The
nonmoving party cannot oppose a properly supported
summary judgment motion by “rest[ing] on mere allegations or denials of his pleadings.” Anderson, 477 U.S.
at 259.
II.

Analysis
A. Defendants’ Motion for Summary Judgment

Defendants seek summary judgment as to all of
Plaintiff ’s surviving claims on the grounds that

App. 57
Defendants are entitled to summary adjudication on
their Twelfth and Thirty-Seventh Affirmative Defenses for Fair Use and First Amendment, respectively.
Defs.’ MSJ Notice at 1.
1. Copyright Infringement and Fair Use
Defendants seek summary adjudication on Plaintiff ’s copyright infringement claim on the grounds that
Boldly is a fair use. See Defs.’ MSJ at 7–12. As the
Court has previously explained, see ECF No. 38 at 4
(citing 17 U.S.C. § 107; Campbell v. Acuff-Rose Music,
Inc., 510 U.S. 569, 576–77 (1994)), “the doctrine of ‘fair
use’ shields from infringement particular uses of a
copyrighted work.”
In codifying the fair use doctrine, Congress set
forth four non-exclusive factors for courts to
consider in evaluating whether a particular
use of a copyrighted work is fair:
(1) the purpose and character of the
use, including whether such use
is of a commercial nature or is
for nonprofit educational purposes;
(2) the nature of the copyrighted
work;
(3) the amount and substantiality of
the portion used in relation to
the copyrighted work as a whole;
and

App. 58
(4) the effect of the use upon the potential market for or value of the
copyrighted work.
. . . “The fair use doctrine thus ‘permits [and
requires] courts to avoid rigid application of
the copyright statute when, on occasion, it
would stifle the very creativity which that law
is designed to foster.’ . . . Accordingly, “the
analysis is a flexible one[,]” to be “perform[ed]
on a case-by-case basis” and “in light of the
copyright law’s purpose ‘to promote the progress of science and art by protecting artistic
and scientific works while encouraging the development and evolution of new works.’ ”
ECF No. 38 at 5 (quoting 17 U.S.C. § 107; Campbell,
510 U.S. at 577; Ledsinger, Inc. v. BMG Music Pub., 512
F.3d 522, 529 (9th Cir. 2008)).
a. First Factor: The Purpose and Character of the Use
As the Court previously explained,
“The central purpose of this [factor] is to see
. . . whether the new work merely ‘supersede[s] the objects’ of the original creation . . .
or instead adds something new, with a further
purpose or different character, altering the
first with new expression, meaning, or message; it asks, in other words, whether and to
what extent the new work is ‘transformative.’ ” . . . Because “the goal of copyright, to
promote science and the arts, is generally
furthered by the creation of transformative

App. 59
works[,]” the “more transformative the new
work, the less will be the significance of other
factors, like commercialism, that may weigh
against a finding of fair use.” . . . “[A]n allegedly infringing work is typically viewed as
transformative as long as new expressive content or message is apparent." . . . “This is so
even where . . . the allegedly infringing work
makes few physical changes to the original or
fails to comment on the original.” . . . However,
even when a new use is transformative, “the
degree to which the new user exploits the
copyright for commercial gain—as opposed to
incidental use as part of a commercial enterprise”—affects the overall balance of this factor.
ECF No. 38 at 6–7 (quoting Campbell, 510 U.S. at 579;
Seltzer v. Green Day, Inc., 725 F.3d 1170, 1177–78 (9th
Cir. 2013)). At the motion-to-dismiss stage, the Court
concluded that, “although Boldly fails to qualify as a
parody[,] it is no doubt transformative.” Id. at 8. Further, while “there is no question that Defendants created their work for profit[,] . . . weigh[ing] against
Defendants . . . , its weight is slight given both the
transformative nature of the work . . . and the fact that
Boldly does not supplant the market for Go! or other
relevant Dr. Seuss works.” Id. Accordingly, the Court
concluded that, “on balance, this factor weighs in favor
of finding Defendants’ use to be fair.” Id.
Not surprisingly, Defendants argue that “[t]he
Court’s analysis of [this] . . . fair use factor[ ] is settled,”
Defs.’ MSJ at 7, while Plaintiff urges the Court to

App. 60
“reconsider [its] finding in light of further legal developments,” specifically, the Federal Circuit’s subsequent
decision in Oracle America, Inc. v. Google LLC, 886
F.3d 1179 (Fed. Cir. 2018). Pl.’s MSJ at 14. Specifically,
Plaintiff claims that “Oracle outlines three inquiries
for the court to consider in weighting the first factor:
(1) ‘whether the use is commercial in nature;’ (2)
‘whether the new work is transformative or simply
supplants the original;’ and (3) whether the facts show
‘that the infringer acted in bad faith.’ ” Id. at 14–15
(quoting Oracle, 886 F.3d at 1196). Plaintiff contends
that “Boldly loses on all three counts” because it “is
highly commercial, . . . is not ‘transformative’ as the
term is applied in fair use, and Defendants acted in bad
faith.” Id. at 15.
The Court does not find Oracle persuasive. Plaintiff argues that “Oracle held that . . . Google’s use of
Oracle’s Java program was not transformative, despite
the fact that Google only used 37 of the 166 Java SE
API packages and created its own implementing code.”
Pl.’s MSJ at 16 (citing Oracle, 886 F.3d at 1200–01).
This may be true, but there is a key distinction: in Oracle, the Defendants copied the 37 SE API packages
wholesale, while in Boldly “the copied elements are
always interspersed with original writing and illustrations that transform Go!’s pages into repurposed, StarTrek-centric ones.” See ECF No. 38 at 8. Defendants
did not copy verbatim text from Go! in writing Boldly,
nor did they replicate entire illustrations from Go!
Although Defendants certainly borrowed from Go!—at
times liberally—the elements borrowed were always

App. 61
adapted or transformed. The Court therefore concludes, as it did previously, see id., that Defendants’
work, while commercial, is highly transformative.
Further, the Court is not persuaded that Boldly
“has the same intrinsic purpose and function as Go!,”
i.e., “providing an illustrated book, with the same uplifting message that would appeal to graduating high
school and college seniors,” see Pl.’s MSJ at 17, or that
Defendants “act[ed] in bad faith.” See id. at 17. While
Boldly may be an illustrated book with an uplifting
message (something over which Plaintiff cannot exercise a monopoly), it is one tailored to fans of Star Trek’s
Original Series. See, e.g., Duvdevani Decl. Ex. 2 at 67:168:3. Further, that Defendants discussed the necessity
of a license and determined that Boldly was a “fair use
parody” without seeking the advice of counsel does not
amount to bad faith. See, e.g., Campbell, 510 U.S. at 585
n.18 (“Even if [bad] faith were central to fair use, [Defendants’] actions do not necessarily suggest that
they believed their version was not fair use.”); see also
Henley v. DeVore, 733 F. Supp. 2d 1144, 1166 (C.D. Cal.
2010) (“The Court declines to hold that an infringer
must, as a matter of law, consult an attorney or investigate complicated fair use doctrine to avoid a finding
of willfulness.”). There is no evidence here that Defendants “knew that [they] needed a license to use [the
Copyrighted Works].” Cf. Oracle, 886 F.3d at 1203.
Finally, Plaintiff ’s argument that Boldly is a derivative work misses the mark, as a derivative work is
not foreclosed from being transformative (or constituting a fair use). The Copyright Act defines a “derivative

App. 62
work” as “a work based upon one or more preexisting
works, such as a translation, musical arrangement,
dramatization, fictionalization, motion picture version,
sound recording, art reproduction, abridgment, condensation, or any other form in which a work may be
recast, transformed, or adapted.” 17 U.S.C. § 101. “Subject to sections 107 through 122, the owner of copyright
. . . has the exclusive rights to do and to authorize . . .
[the] prepar[ation of ] derivative works based upon the
copyrighted work.” 17 U.S.C. § 106(2). The Court need
not resolve whether Boldly is a derivative work for purposes of Sections 101 and 106(2), however, because
Plaintiff has overlooked the critical introductory
clause to Section 106(2), which limits the “exclusive
right[ ]” to prepare derivative works by, among other
exceptions, the doctrine of fair use. See 17 U.S.C.
§ 107; see also H.R. Rep. No. 94-1476, at 61 (1976)
(“[E]verything in section 106 is made ‘subject to
sections 107 through 118,’ and must be read in conjunction with those provisions.”), reprinted in 1976
U.S.C.C.A.N. 5659, 5674. Consequently, even if Boldly
were a derivative work, it could still be transformative—as the Court has found—and constitute a noninfringing fair use.4 The Court therefore reaffirms its
4

If anything, the derivative works question appears to relate
to the copyrightability of Boldly, see, e.g., 17 U.S.C.§ 103(a) (defining scope of copyright protection for derivative works); see also
H.R. Rep. 94-1476, at 58 (1976) (“[T]he unauthorized reproduction of a work might be ‘lawful’ [for purposes of Section 103(a)]
under the doctrine of fair use or an applicable foreign law, and if
so the work incorporating it could be copyrighted.”), reprinted in
1976 U.S.C.C.A.N. 5659, 5671, which is not at issue in this action.

App. 63
prior conclusion and determines, on balance, that this
factor weighs in favor of finding Defendants’ use to be
fair.
b. Second Factor: The Nature of the
Copyrighted Use
The Parties agree that there is no reason for the
Court to alter its prior finding that “this factor as a
whole . . . weighs only slightly in [Plaintiff ’s] favor.”
See ECF No. 38 at 9 (quoting Seltzer, 725 F.3d at 1178);
see also Pl.’s MSJ at 20; Defs.’ MSJ at 7. Accordingly,
because there is no dispute that the Copyrighted
Works are highly creative but have also been long and
widely published, the Court concludes as before that
this factor slightly favors Plaintiff.
c. Third Factor: The Amount and Substantiality of the Portion Used
In ruling on Defendants’ first motion to dismiss,
the Court found that, although “there is no dispute
that Boldly copies many aspects of Go!’s and other Dr.
Seuss illustrations[,] . . . Boldly does not copy them in
their entirety[,]” but rather “infuse[s each] with new
meaning and additional illustrations that reframe
Seuss images from a unique Star-Trek viewpoint.” ECF
No. 38 at 9. The Court also found that Boldly did not
“copy more than is necessary to accomplish its transformative purpose.” Id. Consequently, the Court held
that “this factor d[id] not weigh against Defendants.”
Id. at 10 (citing Seltzer, 725 F.3d at 1178 (“[T]his factor

App. 64
will not weigh against an alleged infringer, even when
he copies the whole work, if he takes no more than is
necessary for his intended use.”)).
Defendants urge the Court to stand by its earlier
ruling, see Defs.’ MSJ at 7, while Plaintiff again encourages the Court to reconsider its prior conclusion given
the Federal Circuit’s decision in Oracle and facts developed in discovery that it claims show “Defendants
took far more from Go! than they needed to create a
Dr. Seuss-Star Trek mash-up.” See Pl.’s MSJ at 20-21.
Specifically, Plaintiff claims that “Oracle makes clear
. . . Defendants’ addition of new content stolen from
another copyright holder (Star Trek trademarks and
references) does not lessen the substantiality of the
taking from” Plaintiff. Id. Plaintiff points to emails
from Defendants, written after the filing of this lawsuit, weighing the possibility of creating “whole new
artwork, not specifically based on any individual drawing by Seuss, but close enough to his style to match the
text” as evidence that Defendants “could have taken
far less from Go! to create a ‘mash-up.’ ” Id. at 21 (quoting Duvdevani Decl. Ex. 24, ECF No. 107-38).
The Court is unpersuaded. There is always an argument to be made that an infringement defendant
could have used less—otherwise the case would not
be in litigation. The pertinent question is whether Defendants “only copie[d] as much as [wa]s necessary for
[their] intended use.” L.A. News Serv. v. CBS Broad.,
Inc., 305 F.3d 924, 941 (9th Cir. 2002) (emphasis added)
(quoting Kelly v. Arriba Soft Corp., 280 F.3d 934, 943
(9th Cir. 2002)). Here, Defendants sought to “mash up”

App. 65
the Star Trek original series with Go! in particular, rather than “Dr. Seuss” in general. See, e.g., Duvdevani
Decl. Ex. 2 at 43:3–45:1.
Although the Court ultimately concluded that
Boldly was not a parody, see ECF No. 38 at 8, the Court
concludes that this case is most analogous to the situation in Leibovitz v. Paramount Pictures Corp., 137
F.3d 109 (2d Cir. 1998). In Leibovitz, the defendant was
alleged to have infringed a famous photograph of a
nude, pregnant Demi Moore that appeared on the
cover of the August 1991 issue of Vanity Fair. Id. at 111.
The photo of Ms. Moore was itself “a well known pose
evocative of Botticelli’s Birth of Venus.” Id. As part of
an advertising campaign for an upcoming movie, the
defendant commissioned a photographer to take a
photo of another nude, pregnant woman in a similar
pose, and “[g]reat effort was made to ensure that the
photograph resembled in meticulous detail the one
taken [of Ms. Moore] by [the plaintiff ],” from the
model’s posture to her hand placement to the use of a
large ring on the same finger. Id. The defendant’s photograph was then digitally enhanced using a computer
to make the skin tone and body shape more closely resemble that of Ms. Moore in the plaintiff ’s original
photo. Id. at 111–12. Leslie Nielsen’s face was superimposed on the model’s body, “with his jaw and eyes
positioned roughly at the same angle as Moore’s, but
with her serious look replaced by Nielsen’s mischievous smirk.” Id. at 112. The finished poster advertised
that the movie was “DUE THIS MARCH.” Id. at 111.

App. 66
The Second Circuit stressed that, “[i]n assessing
the amount and substantiality of the portion used, [the
court] must focus only on the protected elements of the
original.” Id. at 115. Consequently, the court reasoned,
the plaintiff “is entitled to no protection for the appearance in her photograph of the body of a nude, pregnant
female,” id. at 115–16, but rather only “the particular
way the body of Moore is portrayed.” Id. at 116. The
court clarified that, “[e]ven though the basic pose of a
nude, pregnant body and the position of the hands, if
ever protectable, were placed into the public domain
by painters and sculptors long before Botticelli, [the
plaintiff ] is entitled to protection for such artistic elements as the particular lighting, the resulting skin
tone of the subject, and the camera angle that she selected.” Id. (footnote omitted). The court ultimately
concluded that the defendant “took more of the [plaintiff ’s] photograph than was minimally necessary to
conjure it up, but” that there was “little, if any, weight
against fair use so long as the first and fourth factors
favor the” defendant. Id.
As in Leibovitz, the Court must take care in distinguishing precisely those elements of the Copyrighted Works to which Plaintiff is entitled copyright
protection. Examining the cover of each work, for example, Plaintiff may claim copyright protection in the
unique, rainbow-colored rings and tower on the cover
of Go! Plaintiff, however, cannot claim copyright over
any disc-shaped item tilted at a particular angle; to
grant Plaintiff such broad protection would foreclose a
photographer from taking a photo of the Space Needle

App. 67
just so, a result that is clearly untenable under—and
antithetical to—copyright law.
But that is essentially what Plaintiff attempts to
do here. Instead of replicating Plaintiff ’s rainbowringed disc, Defendants drew a similarly-shaped but
decidedly non-Seussian spacecraft—the USS Enterprise—at the same angle and placed a red-and-pink
striped planet where the larger of two background
discs appears on the original cover. See Duvdevani
Decl. Ex. 31, ECF No. 115-11, at 450. Boldly’s cover also
features a figure whose arms and hands are posed
similarly to those of Plaintiff ’s narrator and who
sports a similar nose and eyes, but Boldly’s narrator
has clearly been replaced by Captain Kirk, with his
light, combed-over hair and gold shirt with black trim,
dark trousers, and boots.5 Id. Captain Kirk stands on
a small moon or asteroid above the Enterprise and, although the movement of the moon evokes the tower
or tube pictured on Go!’s cover, the resemblance is
purely geometric. Id. Finally, instead of a Seussian
landscape, Boldly’s cover is appropriately set in space,
5

Plaintiff attempts to argue that Boldly uses a Dr. Seuss
character: “the ‘boy,’ ” Pl.’s MSJ Reply at 2, “a derivation of Go!’s
protagonist.” Id. at 9–10. Plaintiff cannot claim copyright protection for the use of any unidentified “boy” protagonist; its rights
are limited only to the particular boy protagonist appearing in
Go!, sporting a yellow cap and onesie. Although Boldly’s protagonist shares certain facial features with the “boy,” such as his
button nose, and mimics many of his poses, he is no longer the
“boy” from Go!, but rather has been transformed into Captain
Kirk from Star Trek. The Court therefore finds unavailing Plaintiff ’s claim that Defendants have used one of Plaintiff ’s “characters.”

App. 68
prominently featuring stars and planets. Id. In short,
“portions of the old work are incorporated into the new
work but emerge imbued with a different character.”
See Mattel, Inc. v. Walking Mountain Prods., 353 F.3d
792, 804 (9th Cir. 2003).
Further, Defendants here took less from Plaintiff ’s
copyrighted works both quantitatively and qualitatively than the defendant in Leibovitz. The defendant
in Leibovitz incorporated nearly the entirety of the
plaintiff ’s photograph, except for superimposing a different face onto the body. 137 F.3d at 111–12. Here, by
contrast, Defendants took discrete elements of the
Copyrighted Works: cross-hatching, object placements,
certain distinctive facial features, lines written in anapestic tetrameter. Yes, these are elements significant
to the Copyrighted Works, but Defendants ultimately
did not use Dr. Seuss’ words, his character, or his universe. The Court therefore stands by its prior conclusion
that Defendants took no more from the Copyrighted
Works than was necessary for Defendants’ purposes,
i.e., a “mash-up” of Go! and Star Trek, and that, consequently, this factor does not weigh against Defendants.
d. Fourth Factor: The Market Effect of
the Use
As the Court previously explained,
This factor considers “not only the extent of
market harm caused by the particular actions
of the alleged infringer, but also ‘whether unrestricted and widespread conduct of the sort

App. 69
engaged in by the defendant . . . would result
in a substantially adverse impact on the potential market’ for the original.” . . . “Where
the allegedly infringing use does not substitute for the original and serves a ‘different
market function,’ such factor weighs in favor
of fair use.” . . . However, “[t]his factor also
considers any impact on ‘traditional, reasonable, or likely to be developed markets.’ ”
ECF No. 38 at 10–11 (quoting Campbell, 510 U.S. at
590; Seltzer, 725 F.3d at 117). Given Plaintiff ’s allegation in its original complaint that “[i]t is not uncommon
for DSE to license” its works, including in “collaborations with other rights holders,” see ECF No. 1 ¶ 32, the
Court concluded that potential harm to Plaintiff ’s licensing opportunities was to be presumed and that the
factor favored Plaintiff, although “Defendants might
well be able to ultimately disprove [Plaintiff ’s] statement [concerning its licensing of collaborations] as it
applies [to] works of Boldly’s type.” ECF No. 38 at 11.
The Court added, however, that “this presumed harm
is neutralized somewhat by the fact that Boldly does
not substitute for the original and serves a different
market function than Go!” because “Boldly’s market
relies on consumers who have already read and greatly
appreciated Go! and Dr. Seuss’s other works, and who
simultaneously have a strong working knowledge of
the Star Trek series.” Id. In denying Defendants’ second motion, the Court recognized that because it had
“previously found Boldly to be transformative[,] . . . [it]
d[id] not presume market harm.” ECF No. 51 at 9.

App. 70
At oral argument, Plaintiff ’s counsel conceded
that, if the Court concludes that Boldly is transformative, the burden is on Plaintiff to demonstrate a likelihood of future market harm. ECF No. 148 at 7:5–24,
12:20–22; see also, e.g., Campbell, 510 U.S. at 591
(“[W]hen, on the contrary, the second use is transformative, market substitution is at least less certain, and
market harm may not be so readily inferred.”). Not
only must Plaintiff introduce “[e]vidence of substantial
harm to it,” see Campbell, 510 U.S. at 593, but Plaintiff
must make this showing “by a preponderance of the
evidence.” Sony Corp. of Am. v. Universal City Studios,
Inc., 464 U.S. 417, 451 (1984).
Given that this factor is often treated as the “single most important element of fair use,” see Harper &
Row Publishers, Inc. v. Nation Enters., 471 U.S. 539,
566 (1985), the parties hotly contest the inferences
that can be drawn from the developed record. Plaintiff,
on the one hand, contends that “Boldly was intended
to compete with, and thus supplant, Go! in the market
for graduation gifts, and, given the enduring popularity of Star Trek over the last 50 years, it is reasonable
to assume that some prospective Go! buyers would instead buy Boldly because the purchaser or the gift recipient is a Star Trek fan.” Pl.’s MSJ at 23. Plaintiff
notes that it “has also published several books that are
derivative of the DSE Works, including derivatives of
Go!” and that “[c]ombining the DSE Works with Star
Trek intellectual property to create a new illustrated
work is exactly the type of ‘collab’ project that DSE
might license.” Id. Further, Plaintiff raises the specter

App. 71
of a slippery slope, arguing that, “if third parties could
freely create collaborative mash-ups without permission of the affected copyright holders, DSE would not
be the only one harmed: the entire market for authorized collaborative works would be threatened.” Id. at
24 (citing Campbell, 510 U.S. at 587, 590). Defendants,
on the other hand, counter that Plaintiff “shows only
that it has a market for its works, not that Boldly
would affect that market.” Defs.’ MSJ Opp’n at 15. Defendants urge that Plaintiff ’s “suppositions are not a
valid basis to accept its Doomsday scenarios, or to further delay Defendants’ opportunity to publish their
creative mashup.” Id. at 21.
At the hearing, the Court asked Plaintiff to identify any record evidence that Boldly is likely to harm
the market for Go! and Plaintiff ’s licensed derivatives.
ECF No. 148 at 15:16–16:19; see also id. at 8:9–16,
11:2–12:12, 14:1–24. As in its papers, Plaintiff argued
that, “had Defendants and their publisher and wholesalers acted on th[eir] plan to target ‘fans of Seuss’ and
‘Trek’ in Spring, a substantial number of purchasers
would have bought Boldly, rather than Go!, as a graduation gift.” Pl.’s MSJ Reply at 8; see also ECF No. 148
at 14:1–24. As for Plaintiff ’s market for derivative
works, Plaintiff introduced undisputed evidence that
it has published many derivatives of the Copyrighted
Works—including collaborations with other rights
holders—and has a “robust licensing program.” Pl.’s
MSJ at 9; see also ECF No. 148 at 9:9–11:18. Plaintiff
also contends that “‘unrestricted and widespread conduct of the sort engaged in by the defendant’ would

App. 72
harm [Plaintiff ]’s licensing program.” Pl.’s MSJ at 10
(quoting Campbell, 510 U.S. at 590); see also ECF No.
148 at 11:19–12:12, 58:24–60:3 (quoting Campbell, 510
U.S. at 590).
Even viewing the undisputed evidence most favorably to Plaintiff, the Court concludes that Plaintiff has failed to sustain its burden to demonstrate
by a preponderance of the evidence that Boldly is
likely substantially to harm the market for Go! or licensed derivatives of Go! Instead, the “potential harm
to [Plaintiff ]’s market remains hypothetical.” See, e.g.,
Perfect 10, Inc. v. Amazon.com, Inc., 508 F.3d 1146, 1168
(9th Cir. 2007); Equals Three, LLC v. Jukin Media, Inc.,
139 F. Supp. 3d 1094, 1108 (C.D. Cal. 2015).
Equals Three is instructive. In Equals Three, a producer of online humor videos brought a declaratory relief action against the owner of an online library of
user-generated video clips, seeking an injunction and
declaratory judgment that its use of the owner’s videos
was a fair use. 139 F. Supp. 3d at 1098. The owner
countersued, asserting that the humorous videos infringed its copyrights. Id. The copyright owner was a
media company that acquired user-generated internet
video clips that it determined were likely to “go viral,”
obtaining a library of over 17,000 videos. Id. It capitalized on its video library through ad-supported and subscription-based syndication and through licensing the
videos for use on television and cable shows. Id. Some
of the owner’s clips were used without a licensing
agreement by the alleged infringer, which produced a
short humor program broadcast on YouTube typically

App. 73
involving a host giving an introduction and then showing and remarking on several video clips. Id. at 1099.
In evaluating the alleged infringer’s fair use defense, the district court determined that, although not
parodic, the use of all but one of the videos was transformative and that the commercial nature of the use
was outweighed by this transformativeness.6 See id. at
1104–05. The court reasoned that “the jokes, narration,
graphics, editing, and other elements that [the humorist] adds to [the copyright holder]’s videos add something new to [the copyright holder]’s videos with a
different purpose and character.” Id. at 1105.
With respect to market harm, the copyright holder
offered the “speculative conclusion” that its videos are
most valuable shortly after publication and that this
was when the alleged infringer copied its videos. Id. at
1107. The court noted that the copyright holder gave
“no specific facts regarding the value of the videos at
issue in the case before or after [the alleged infringer]
6

The one video that the district court determined was not
transformative used a copyrighted “video of the first person to buy
an iPhone 6 in Perth dropping the phone.” Id. at 1105. In a declaration, the humorist claimed that it used the video “for the purpose of making two points: (1) ‘don’t be first at shit’; and (2) Apple
Inc.’s method of packaging iPhones at the top of the box is absurd.” Id. Because the alleged infringer “admit[ted] that its purpose of using [the copyright holder]’s video was to make two
general, broad points that were not directly aimed at criticizing
or commenting on the video,” the court concluded that “[t]he use
of [the copyright holder]’ s footage to make these two points is
akin to using news footage without adding anything transformative to what made the footage valuable.” Id. Such is not the case
here. See supra Section II.A.1.a.

App. 74
used them” and that, “even assuming arguendo that
the videos are more valuable shortly after publication,
focusing on harm from [the alleged infringer]’s failure
to pay a license risks circular reasoning—if [the alleged infringer]’s use is fair then no license fee is required by it or similar users.” Id. The copyright holder
also “argue[d] that [the alleged infringer]’s episodes
usurp[ed] demand for [the copyright holder]’s videos[,]
. . . offer[ing] evidence that it licenses its videos to
shows which it claim[ed we]re similar to [the alleged
infringer]’s.” Id. Although the court recognized that
there was “no cognizable derivative market for criticism,” it “consider[ed] the possibility that [the alleged
infringer]’s viewers use the episodes as a substitute for
[the copyright holder]’s videos.” Id. at 1108. As here,
the copyright holder argued “that viewers no longer
need to watch its videos after watching [the alleged infringer]’s episodes,” while the alleged infringer argued
“that its episodes actually increase [the copyright
holder] ‘s views.” Id. But “[n]either side submit[ted] admissible evidence strongly supporting its position.” Id.
The copyright holder, on the one hand, “relie[d] on [its
Vice President of Content Operations]’s unfounded testimony that [the alleged infringer]’s viewers no longer
need to watch [the copyright holder]’s videos” and “the
conclusory statement of its Director of Licensing . . .
that [the alleged infringer]’s use of [the copyright
holder]’s videos decreases their licensing values.” Id.
On the other hand, the alleged infringer “relie[d] primarily on its employees’ inadequately supported testimony and on unauthenticated statements purportedly
from [its] viewers to show that its viewers also watch

App. 75
[the copyright holder]’s videos.” Id. Although the court
“c[ould] imagine a fine line between the demand for the
humorous original and the humorous new work commenting thereon . . . , there [wa]s no actual evidence of
any such harm.” Id. “Thus, on this record, where any
market harm remains hypothetical,” the court found
that the factor did “not favor either party.” Id. (citing
Perfect 10, 508 F.3d at 1168).
Similarly, in Perfect 10, the Ninth Circuit determined that Google’s use of thumbnails of copyrighted
images was highly transformative, see 508 F.3d at
1165, and consequently that “market harm c[ould ]not
be presumed.” Id. at 1168. Although the copyright
holder argued that it had a market for reduced-sized
images, such as those available through Google’s
search results, the plaintiff did not introduce any
evidence that any downloads of Google’s thumbnail
search results for mobile phone use had actually taken
place. Id. at 1166, 1168. Consequently, “[t]his potential
harm to [the copyright holder]’s market remain[ed] hypothetical,” and the Ninth Circuit reversed the district
court and concluded that the fourth fair use factor “favor[ed] neither party.” Id. at 1168.
As in Perfect 10 and Equals Three, the Court has
concluded that Defendants’ use of the Copyrighted
Works was transformative. See supra Section II.A.1.a.
Accordingly, as Plaintiff itself has conceded, see ECF
No. 148 at 7:5–24, 12:20–22, and as the Court has previously found, see ECF No. 51 at 9, harm to Plaintiff ’s
potential market for Go! cannot be presumed. See, e.g.,
Campbell, 510 U.S. at 591; Perfect 10, 508 F.3d at 1168;

App. 76
Equals Tree, 139 F. Supp. 3d at 1107. It was therefore
incumbent upon Plaintiff to introduce sufficient evidence to demonstrate by a preponderance of the evidence that Boldly is likely substantially to harm the
market for Go! or its licensed derivatives. This it has
failed to do.
As before, see ECF No. 38 at 11 (citing Kelly, 336
F.3d at 821), the Court concludes on the record before
it that Boldly is not likely to usurp Go!’s market as a
children’s book:
Boldly does not substitute for the original and
serves a different market function than Go!
. . . Indeed, Boldly’s market relies on consumers who have already read and greatly appreciated Go! and Dr. Seuss’s other works, and
who simultaneously have a strong working
knowledge of the Star Trek series. It is therefore unlikely that Boldly would severely impact the market for Dr. Seuss’s works.
Yes, Defendants wanted Boldly to be “family friendly,”
but they “d[idn’]t expect it to be read by 5 year olds”;
they just wanted it to “be safe for them.” Duvdevani
Decl. Ex. 20, ECF No. 107-35, at 362. Even if Boldly
appears “family friendly,” id., it still touches on more
adult subjects, including “lovers . . . [who]’ll never be
back for an episode two.” Duvdevani Decl. Ex. 31 at
456. Even the illustrations are imbued with sexual innuendo, with one page depicting a number of women
(and possibly one man) with whom Captain Kirk has
slept. See id. at 469. The illustration also features
Captain Kirk pulling on his boots, see id., which Mr.

App. 77
Templeton explains “is a common trope of Star Trek
that after Captain Kirk has bedded a lovely alien lady,
you will always see the scene afterwards, he will be
pulling his boots back on. That was the sort of shorthand in Star Trek for Captain Kirk got some. . . . [The
illustration]’s evocative of the Star Trek element of
sex.” Duvdevani Decl. Ex. 1 at 175:3–17.
This further cements the Court’s prior conclusion
that Boldly is targeted at those who have an appreciation of both Go! (or other Dr. Seuss works) and Star
Trek’s Original Series. As Mr. Gerrold testified, Star
Trek “is a very adult show and was always from the
very beginning . . . a commentary on social issues, it is
about the challenges that adults face, and Star Trek is
for a very adult demographic.” Duvdevani Decl. Ex. 2
at 43:12–18. Boldly was intended “for adults who are
familiar with all the episodes [of Star Trek]” and
“would not work for kids who have not seen the
episode[s].” Id. at 44:10–14. Despite its admittedly
Seussian appearance, Boldly is clearly not a children’s
book and there is a minimal risk that Boldly will usurp
Go!’s market to the extent it is targeted to children (either directly or through their parents).
The closer question concerns Go!’s graduation and
derivative markets. See, e.g., Pl.’s MSJ at 22–24. Plaintiff claims, for example, that “Boldly was intended to
compete with, and thus supplant, Go! in the market for
graduation gifts.” Id. at 23. It is clear that Defendants’
publisher and distributor intended to market Boldly

App. 78
for, among other purposes, graduation,7 see, e.g.,
Duvdevani Decl. Ex. 48, ECF No. 115-19, at 550 (identifying the possible audience as “[g]raduates and parents of graduates (college, high school, 8th grade); fans
of Star Trek; fans of Dr. Seuss”); Duvdevani Decl. Ex.
66, ECF No. 107-62 (“[ThinkGeek woul]d LOVE to be
able to offer [Boldly] for Graduation on the site.”), but
Plaintiff has introduced no evidence concerning the
likely incidence of such purchases or the possible impact—if any—on its considerable licensing revenues.
What is clear is that Go! is Plaintiff ’s “best-selling
book,” see SOF ¶ 141, and that is it a “NY Times best
seller each spring” with “[o]ver 12.5M copies sold with
sales increasing the past 4 years!” See Duvdevani Decl.
Ex. 108, ECF No. 115-52, at 1. Defendants, on the
other hand, raised $29,575 from 727 backers for Boldly
over a two-month period through Kickstarter, see
Duvdevani Decl. Ex. 40, ECF No. 107-50, at 522, and
ThinkGeek placed an order for 5,000 copies of Boldly
for Christmas 2016 sales. See Duvdevani Decl. Ex. 59,
ECF No. 115-24; Duvdevani Decl. Ex. 60, ECF No.
107-59. Although it is certainly conceivable that some
7

To the extent that Plaintiff argues Defendants originally
intended to market Boldly to graduates, the Court is unpersuaded. Rather, it seems clear that Defendants intended to market Boldly to fans of Star Trek, as demonstrated by their desire
to have copies in time for World Con on August 17, 2016, see, e.g.,
Duvdevani Decl. Ex. 27, ECF No. 107-41, at 434, and decision
to partner with ThinkGeek, “which produces and sells a lot of material that is of . . . interest to fans of Star Trek, Dr. Who, Star
Wars, what have you.” Duvdevani Decl. Ex. 3 at 86:21–87:3; see
also Star Trek Merchandise, Think Geek, https://www.thinkgeek.com/
interests/startrek/ (last visited Feb. 1, 2019).

App. 79
would-be purchasers of Go! would instead purchase
Boldly for a Trekkie graduate, there is a dearth of evidence or expert testimony permitting the Court to extrapolate the likely effect—if any—that Boldly may
have on Plaintiff ’s sales of Go!
The same is true of Plaintiff ’s derivative market.
It is undisputed that Plaintiff was the top book licensor in 2017, see Duvdevani Decl. Ex. 126, ECF No.
107-81, and that the “bulk” of Plaintiff ’s revenues
comes from licensing, with approximately half of those
revenues coming from publishing in “non-film year[s].”
Duvdevani Decl. Ex. 4, ECF No. 115-2, at 59:6–60:2. It
is also undisputed that Plaintiff has licensed books
derivative of Go!, such as Go!: Oh Baby! Go, Baby!; Oh,
the Places I’ll Go! by ME, Myself; Oh, Baby, the Places
You’ll Go!; Oh, the Places You’ll Go (Pop-Up); and Oh,
the Places I’ve Been! Journal, see, e.g., id. at 75:7–79:22,
80:4–7; see also SOF ¶ 142, and that Plaintiff has licensed collaborations in which Plaintiff ’s intellectual
property is combined with another’s intellectual property, such as Wubbulous World of Dr. Seuss, Grinch
Panda Pop, a clothing line with Comme des Garcons,
Dr. Seuss Funko figurines, and PBD-related books
based on The Cat in the Hat Knows a Lot About That.
See, e.g., Duvdevani Decl. Ex. 4 at 125:2129:2, 135:25–
137:3, 142:19–146:19, 151:1–160:5, 166:4–168:12, 284:19–
286:3; see also SOF ¶¶ 150–56.
As in Perfect 10 and Equals Three, however, Plaintiff has introduced no evidence tending to show that it
would lose licensing opportunities or revenues as a result of publication of Boldly or similar works. See, e.g.,

App. 80
Perfect 10, 508 F.3d at 1168 (no showing that users of
search engine had downloaded thumbnail images for
cell phone use, thus harming the plaintiff ’s market for
cell phone downloads); Equals Three, 139 F. Supp. 3d
at 1108 (no showing that potential licensees would be
less likely to license copyrighted videos). And as in
Equals Three, Plaintiff ’s argument “risks circular reasoning,” see 139 F. Supp. 3d at 1107, in that “it is a
given in every fair use case that plaintiff suffers a loss
of a potential market if that potential is defined as the
theoretical market for licensing the very use at bar.”8 4
8

To reduce this risk of circular reasoning, courts are to
consider only the copyright holder’s “traditional, reasonable, or
likely to be developed markets.” Seltzer, 725 F.3d at 1179 (citing
Ringgold v. Black Entm’t Television, Inc., 126 F.3d 70, 81 (2d Cir.
1997)). Here, Plaintiff ’s proprietary “Style Guide,” see Duvdevani
Decl. Ex. 85, ECF No. 115-29–31, which is “the packet of materials that a partner under license would receive to help them start
designing products for Dr. Seuss,” Duvdevani Decl. Ex. 4 at
316:2–12, supports Defendants’ argument that Boldly occupies a
market that Plaintiff has not traditionally targeted or is likely to
develop. Under “Do’s and Don’ts,” Plaintiff instructs its licensees
not to show characters with items “not from [the Seuss] world”
and not to “use Seuss characters with third party’s characters.”
Duvdevani Decl. Ex. 85, ECF No. 115-29, at 680–81. Licensees
are also not supposed to “make up Seuss-like rhymes.” Id. at 681.
Boldly, however, breaks these rules: it makes liberal (if not exclusive) use of third-party characters from Star Trek, mixes them
with non-Seussian elements and worlds from Star Trek, and it
creates its own Seuss-like rhymes using Star Trek wordplay. See,
e.g., Duvdevani Decl. Ex. 31 at 453 (depicting the protagonist in
a spacesuit walking along the Enterprise as it floats through
space and explaining that “Your big ship will take you to alien
skies. / It’s the best that we’ve got for your great enterprise.”). It
is therefore unlikely that Boldly is “precisely the type [of ‘collab’]
that [Plaintiff ] might consider.” See Pl.’s MSJ at 20.

App. 81
Nimmer on Copyright § 13.05 (2018); see also Am. Geophysical Union v. Texaco Inc., 60 F.3d 913, 929 n.17
(2d Cir. 1994) (“[W]ere a court automatically to conclude in every case that potential licensing revenues
were impermissibly impaired simply because the secondary user did not pay a fee for the right to engage in
the use, the fourth fair use factor would always favor
the copyright holder.”), cert. dismissed, 516 U.S. 1005
(1995); William F. Patry, Patry on Fair Use § 6:9 (2018)
(“If taken to a logical extreme, the fourth factor would
always weigh against fair use since there is always a
potential market that the copyright owner could in
theory license.”). After all, as the Supreme Court has
admonished, “[t]he primary objective of copyright is
not to reward the labor of authors, but ‘to promote the
Progress of Science and useful Arts.’ To this end, copyright assures authors the right to their original expression, but encourages others to build freely upon the
ideas and information conveyed by a work.” Fogerty v.
Fantasy, Inc., 510 U.S. 517, 527 (1994) (quoting Feist
Publ’ns, Inc. v. Rural Tele. Serv. Co., 499 U.S. 340, 349–
50 (1991)).
And merely because Plaintiff has licensed works
derivative of Go! does not mean that a license is required in all instances. See, e.g., Authors Guild, Inc. v.
HathiTrust, 755 F.3d 87, 100 (2d Cir. 2014) (“[I]t is irrelevant that the Libraries might be willing to purchase licenses in order to engage in this transformative
use (if the use were deemed unfair). Lost licensing revenue counts under Factor Four only when the use
serves as a substitute for the original.”); Ty, Inc. v.

App. 82
Publ’ns Intl Ltd., 292 F.3d 512, 521 (7th Cir. 2002)
(“Given that [the copyright holder] can license (in fact
has licensed) the publication of collectors’ guides that
contain photos of all the [the copyrighted works], how
could a competitor forbidden to publish photos of the
complete line compete? And if it couldn’t compete, the
result would be to deliver into [the copyright holder]’s
hands a monopoly of [the copyrighted works] collectors’
guides even though [the copyright holder] acknowledges that such guides are not derivative works and
do not become such by being licensed by it”); Sony
Computer Entm’t, Inc. v. Connectix Corp., 203 F.3d 596,
607–08 (9th Cir. 2000) (“[The copyright holder] understandably seeks control over the market for devices
that play games [the copyright holder] produces or licenses. The copyright law, however, does not confer
such a monopoly.”) (citing Sega Enters. Ltd. v. Accolade,
Inc., 977 F.2d 1510, 1523–24 (9th Cir. 1992) (“[A]n attempt to monopolize the market by making it impossible for others to compete runs counter to the statutory
purpose of promoting creative expression and cannot
constitute a strong equitable basis for resisting the invocation of the fair use doctrine.”)); Castle Rock Entm’t,
Inc. v. Carol Publ’g Grp., Inc., 150 F.3d 132, 145 n.11
(2d Cir. 1998) (“[B]y developing or licensing a market
for parody, news reporting, educational or other transformative uses of its own creative work, a copyright
owner plainly cannot prevent others from entering
those fair use markets”); Twin Peaks Prods., Inc. v.
Publ’ns Intl, Ltd., 996 F.2d 1366, 1377 (2d Cir. 1993)
(“[T]he author of ‘Twin Peaks’ cannot preserve for itself
the entire field of publishable works that wish to cash

App. 83
in on the ‘Twin Peaks’ phenomenon.”). Indeed, Section
107 specifically carves out of Plaintiff ’s monopoly uses
that are “fair” and further the ultimate aims of copyright law.
Under circumstances such as this, in which Plaintiff has failed to introduce evidence tending to demonstrate that the challenged work will substantially
harm the market for its Copyrighted Works, the Court
may conclude that this factor favors neither party. See
Perfect 10, 508 F.3d at 1168; Equals Three, 139 F. Supp.
3d at 1108.
e. Weighing of the Factors
“No single factor or combination of factors controls
the fair use analysis; rather, the Court must weigh all
the facts ‘in light of the purposes of copyright.’ ” Sofa
Entm’t, Inc. v. Dodger Prods., Inc., 782 F. Supp. 2d 898,
910 (C.D. Cal. 2010) (quoting Campbell, 510 U.S. at
577–78 (“The task is not to be simplified with brightline rules. . . . Nor may the four statutory factors be
treated in isolation, one from another. All are to be
explored, and the results weighed together, in light of
the purposes of copyright.”)) (citing Twentieth Century
Music Corp. v. Aiken, 422 U.S. 151, 156 (1975) (“Creative work is to be encouraged and rewarded, but private motivation must ultimately serve the cause of
promoting broad public availability of literature, music, and the other arts.”)), aff ’d, 709 F.3d 1273 (9th Cir.
2013).

App. 84
Here, the Court has concluded that Boldly is
highly transformative. As such, Boldly serves to further “the goal of copyright, to promote science and the
arts.” See Campbell, 510 U.S. at 579. Despite Boldly’s
commercial nature, the first factor of the fair use analysis therefore weighs in favor of Defendants. Of course,
Plaintiff ’s copyrighted works are also highly creative,
although they have also long been in publication, resulting in the second factor slightly favoring Plaintiff.
Although Defendants borrowed heavily from Go! and
the other Copyrighted Works, the Court ultimately
concludes that Defendants took no more than was necessary for their purposes; consequently, this factor does
not weigh against Defendants. Finally, the Court concludes that the harm to Plaintiff ’s market remains
speculative and, accordingly, that the fourth factor is
neutral. On balance, therefore, the fair use factors favor Defendants. Accordingly, the Court GRANTS Defendants’ Motion for Summary Judgment as to fair
use.
2. Trademark Infringement Claims
Defendants also seek summary adjudication of
Plaintiff ’s surviving trademark infringement claims.9
9

Defendants also contend that they are entitled to judgment
on Count II of Plaintiff ’s First Amended Complaint. See Defs.’
MSJ at 12–13. In Count II, Plaintiff alleges that Defendants
have used without authorization Plaintiff ’s United States Trademark Registration No. 5,099,531 for OH THE PLACES YOU’LL
GO. FAC ¶¶ 66–72. On May 21, 2018, the Court concluded
“that the title of Boldly does not violate the Lanham Act,” and
therefore “GRANT[ED] Defendants’ Motion for Judgment on the

App. 85
See Defs.’ MSJ at 12–18. Following the Court’s dismissal of Plaintiff ’s claims based on the title of Boldly, see
ECF No. 89 at 8–9, Plaintiff ’s surviving trademark
claims are premised upon Defendants’ alleged misappropriation of “the stylized font that [Plaintiff ] uses
consistently throughout the Dr. Seuss books” and “Dr.
Seuss’s unique illustration style.” See, e.g., FAC ¶¶ 76,
85. Defendants contend that these claims are defective
because neither a stylized font nor an illustration style
is subject to trademark protection, see Defs.’ MSJ at
13–15, and, even if they were, that Defendants’ use
merits First Amendment protection under Rogers v.
Grimaldi, 875 F.3d 994 (2d Cir. 1989). Defs.’ MSJ at
15–18.
a. Trademark Protection
i.

Illustration Style

Defendants contend that “[t]rademark law does
not protect an artist’s overall style, rather than discrete manifestations of that style.” Defs.’ MSJ at 13.
Despite acknowledging that “no reported case has
involved these precise facts,” Plaintiff counters that
“illustrative style and font meet the Lanham Act’s
intentionally broad definition of mark.” Pl.’s MSJ
Opp’n at 18. Indeed, Plaintiff argues, “the undisputed
Pleadings as to Counts II and III [and IV] of the First Amended
Complaint as they relate to the title of Boldly.” ECF No. 89 at 8–
9. Given the Court’s prior Order, Defendants were not required to
seek summary adjudication of Count II here; nonetheless, the
Court GRANTS Defendants’ Motion for Summary Judgment as
to Plaintiff ’s Count II.

App. 86
evidence amply supports [Plaintiff ]’s allegations that
[Plaintiff ’s stylized font and unique illustration style]
are distinctive and have acquired secondary meaning
in the mind of the public, and are readily associated
with [Plaintiff ].” Id. at 17. Plaintiff relies heavily upon
a survey introduced by its expert, Hal L. Poret, which
“shows that 24% of consumers are confused as to
origin [of Boldly] because Defendants deliberately used
[Plaintiff ’s distinctive illustration style and font],
which is legally probative of confusion.” Id. at 18 (emphasis in original).
In ruling on Defendants’ motion to dismiss, the
Court concluded that, “at this stage of the proceedings
and based on the information in front of the Court, . . .
Plaintiff ’s claimed general ‘illustration style’ is not
protectable.” ECF No. 51 at 15 (citing Whitehead v.
CBS/Viacom, Inc., 315 F. Supp. 2d 1, 13 (D.D.C. 2004)).
As Defendants note, see Defs.’ MSJ at 13, “[c]ourts have
almost uniformly said no” trademark protection exists
for an artistic style. 2 McCarthy on Trademarks and
Unfair Competition § 10:40.50 (5th ed.).
The Court sees no legal or factual basis to change
its conclusion at the summary judgment stage. Accordingly, the Court GRANTS Defendants’ motion and
grants summary judgment on Plaintiff ’s trademark
claims to the extent they are premised on Plaintiff ’s
artistic style. See, e.g., Munro v. Lucy Activewear, Inc.,
899 F.3d 585, 590 (8th Cir. 2018) (“[C]opyright, not
trademark, protects artistic and creative ideas and
concepts.”), cert. denied, No. 18-615, 2019 WL 271969
(U.S. Jan. 22, 2019); Galerie Furstenberg v. Coffaro, 697

App. 87
F. Supp. 1282, 1290 (S.D.N.Y. 1988) (“Plaintiff seeks to
protect Dali’s ‘unique style and interpretation of a certain subject’ (i.e., his authorship) ‘as expressed on paper’ (i.e., fixed in any tangible medium of expression).
This claim is properly brought under the federal copyright, not trademark, statute.”); see also Dastar Corp.
v. Twentieth Century Fox Film Corp., 539 U.S. 23, 34
(2003) (“[I]n construing the Lanham Act, [the Supreme
Court] ha[s] been ‘careful to caution against misuse or
over-extension’ of trademark and related protections
into areas traditionally occupied by patent or copyright”); Landscape Forms, Inc. v. Columbia Cascade
Co., 113 F.3d 373, 382 (2d Cir. 1997) (“If the law protected style at such a level of abstraction, Braque
might have prevented Picasso from selling cubist
paintings in the United States.”).
Because “the same result inures regarding Plaintiff ’s unfair competition claims,” see ECF No. 38 at 19;
ECF No. 51 at 23; see also Cleary v. News Corp., 30 F.3d
1255, 1263 (9th Cir. 1994), the Court similarly
GRANTS Defendant’s Motion for Summary Judgment
and DISMISSES those claims to the same extent.

App. 88
ii. Typeface10
Defendants first argue that “[a] mutable font is no
more susceptible of trademark rights than a general
style.” Defs.’ MSJ at 14. The Court must agree. Although “[o]ne can obtain a trademark on the name of a
typeface . . . , as trademarks only protect the use of a
name or mark in commerce, trademark cannot protect
the design of the typeface itself.” Evans, supra note 10,
at 323 (footnotes omitted) (citing Lipton, supra note 10,
at 184). A number of publications use distinctive typefaces. The New Yorker, for example, uses its own Irvin
typeface for its headlines, David Consuegra, American
Type Design and Designers 170–71 (2004), and Adobe
Caslon for the text of its articles. See Adam Gopnik,
John Updike, New Yorker, Feb. 9, 2009, at 35. Although
The New Yorker may trademark the name of the typeface or its mark in that stylized typeface, see THE
NEW YORKER, Registration No. 0844606, it cannot
10

Although the terms are used interchangeably in common
parlance and the parties’ filings, the Court clarifies that Defendants are alleged to have used Plaintiff ’s “typeface,” rather than
“font.” As Professor Lipton explains, “a typeface is the artistic
creation of a typeface designer, while a font is the result of an
industrial process to enable the reproduction of typefaces in the
printing process.” Jacqueline D. Lipton, To (c) or Not to (c)? Copyright and Innovation in the Digital Typeface Industry, 43 U.C. Davis L. Rev. 143, 148 (2009) (footnote omitted). Today, ‘font’ refers
to the code or program that tells a computer or printer how to
render or print a certain typeface on a computer monitor or piece
of paper.” Emily N. Evans, Fonts, Typefaces, and IP Protection:
Getting to Just Right, 21 J. Intell. Prop. L. 307, 310 (2014). Here,
Defendants are alleged to have reproduced Plaintiff ’s typefaces;
they are not alleged to have replicated Plaintiff ’s underlying
“code” or font.

App. 89
trademark (or copyright, see 37 C.F.R. §§ 202.1(a), (e))
the typeface itself. It seems unlikely, therefore, that
The New Yorker could turn to trademark law to prevent
another publication from using a combination of the
Irvin and Adobe Caslon typefaces, even if the somewhat unique combination of those typefaces is associated in the minds of readers with The New Yorker.
Even if the typeface Defendants copied for the
cover, title page, and spine of Boldly were entitled to
trademark protection, however, Defendants contend
that “Boldly does not use th[e] ‘Seuss font[s]’ ” Plaintiff
urges licenses to use in its Style Guide. Defs.’ MSJ Reply at 8–9. Defendants have introduced evidence that
Plaintiff instructs licensees to use its custom Dr. Seuss
Light or Bold fonts “for graphics, titles, or call outs on
packaging.” Duvdevani Decl. Ex. 85-1, ECF No. 115-29,
at 13. The Dr. Seuss font “is the primary font of the
Dr. Seuss licensing program” and was inspired by Dr.
Seuss’ hand lettered title from The Cat in the Hat. Id.
at 11.
The Court acknowledges that it previously concluded, without considering the Ninth Circuit’s decision in Twentieth Century Fox Television v. Empire
Distributions, Inc., 875 F.3d 1192 (9th Cir. 2017) (“Empire”), that “Defendants ha[d] not satisfied th[e] nominative fair use factor” because “[t]he look of the
lettering [of the titles] is unquestionable identical on
both [Go! and Boldly], down to the shape of the exclamation point,” which “was unnecessary.” ECF No. 51 at
21–22. Upon review of Empire, however, the Court
concluded that the title of Boldly did not violate the

App. 90
Lanham Act because “the title of Boldly . . . is relevant
to its own content,” ECF No. 89 at 7, and “Plaintiff has
not pointed to, and is not able to point to, any evidence
that the title of Boldly explicitly misleads as to the
source of the work.” Id. at 8.
Having concluded that the title of Boldly does not
violate the Lanham Act, the Court now concludes
that Defendants’ use of Seussian typefaces, not in conjunction with an enforceable mark, cannot support a
claim for violation of the Lanham Act or, consequently,
California’s Unfair Competition Law. Accordingly, the
Court GRANTS Defendants’ Motion for Summary
Judgment as to Plaintiff ’s remaining trademark and
unfair competition claims, to the extent they are based
upon Defendants’ alleged misappropriation of Plaintiff ’s typefaces. The Court also GRANTS Defendant’s
Motion for Summary Judgment and DISMISSES
Plaintiff ’s surviving unfair competition claims to the
same extent.
b. First Amendment Protection Under
Rogers
Given the Court’s conclusion that neither Plaintiff ’s artistic style nor distinctive font is entitled to
trademark protection, see supra Section III.B.2.a, the
Court declines to address Defendants’ argument that
their use of the alleged marks is entitled to First
Amendment protection under Rogers. See Defs.’ MSJ
at 15–18.

App. 91
B. Plaintiff ’s Motion for Summary Judgment
In light of the Court’s conclusion that Defendants
are entitled to summary judgment on their fair use
defense, see supra Section II.A.1, the Court DENIES
Plaintiff ’s Motion for Summary Judgment.
EVIDENTIARY MOTIONS
Plaintiff requests that the Court strike the Booth
Declaration and Exhibits 1 through 7 thereto, see generally Mot. to Strike, and exclude the testimony of
Defendants’ expert, Dr. Joshua Gans. See generally
Mot. to Exclude. Because the Court relies on neither
the Booth Declaration nor the opinions of Dr. Gans in
reaching the above conclusions, the Court DENIES
AS MOOT Plaintiff ’s Motions to Exclude and to
Strike.
CONCLUSION
In light of the foregoing, the Court GRANTS Defendants’ Motion for Summary Judgment (ECF No.
108), DENIES Plaintiff ’s Motion for Summary Judgment (ECF No. 107), and DENIES AS MOOT Plaintiff ’s Motions to Exclude (ECF No. 104) and to Strike
(ECF No. 116).

App. 92
IT IS SO ORDERED.
Dated: March 12, 2019

/s/ Janis L. Sammartino
Hon. Janis L. Sammartino
United States District Judge

